<html>
<title> - H.R. 2119, ``NATIONAL HISTORIC FORESTS ACT OF 2001''</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
         H.R. 2119, ``NATIONAL HISTORIC FORESTS ACT OF 2001''
=======================================================================


                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________
                             June 19, 2001
                               __________

                           Serial No. 107-41
                               __________

           Printed for the use of the Committee on Resources









 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov



                    U.S. GOVERNMENT PRINTING OFFICE
73-180                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                












                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 19, 2001....................................     1

Statement of Members:
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado, Prepared statement of...................     1
    Simpson, Hon. Michael, a Representative in Congress from the 
      State of Idaho.............................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Barnett, John, Chairman, Cowlitz Indian Tribe, State of 
      Washington, CEO & Owner of Cowlitz Timber Inc..............    18
        Prepared statement of....................................    19
    Bonnicksen, Thomas M., Ph.D., Professor, Department of Forest 
      Science, Texas A&M University..............................     5
        Prepared statement of....................................     6
    Collins, Sally, Associate Deputy Chief, Forest Service, U.S. 
      Department of Agriculture..................................    35
        Prepared statement of....................................    36
    Holmer, Steve, Campaign Coordinator, American Lands Alliance.    21
        Prepared statement of....................................    23

Additional materials supplied:
    Bird, Bryan, Executive Director, Forest Conservation Council, 
      Letter submitted for the record............................    42
    Chapman, Mary, Executive Director, Forest Stewards Guild, 
      Letter submitted for the record............................    43














          H.R. 2119, ``NATIONAL HISTORIC FORESTS ACT OF 2001''

                              ----------                              


                         Tuesday, June 19, 2001

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 3 p.m., in 
room 1334, Longworth House Office Building, Hon. Scott McInnis 
[Chairman of the Subcommittee] presiding.H.R. 2119
    Mr. McInnis. The Committee will come to order. I would like 
to thank my friend and colleague, Congressman Simpson. 
Congressman, we are going to proceed rather quickly into your 
statement, which means I will go ahead and just submit my 
statement for the record, because I want to allow you plenty of 
time for your opening statement and introduction of your bill.
    So, Congressman, as you know, Mr. Inslee is not here yet. 
When he is here, I will give him an opportunity to make an 
opening statement. I will go ahead and submit mine for the 
record, but waive it and yield the time to you.
    Mr. Simpson?
    [The prepared statement of Mr. McInnis follows:]

  Statement of The Honorable Scott McInnis, Chairman, Subcommittee on 
                       Forests and Forest Health

    I would like to thank my friend and colleague Congressman Simpson, 
for his work on the National Historic Forests Act of 2001. My opening 
remarks will be very brief to allow Mr. Simpson more time for his 
statement.
    Our native forests are in peril. The historic forests that greeted 
the Spanish conquistadors, the American colonists, the Lewis and Clark 
expedition, and the many trappers, traders and other early explorers of 
our country are fast disappearing. As arguments, appeals and lawsuits 
over how to manage federal forests drag on, these forests change 
without waiting for us to act. As we've heard in other hearings before 
this Subcommittee this year, one hundred years of wildfire 
suppression--necessary as it has been--has had unintended negative 
consequences across the American landscape.
    In my opinion, there are two compelling reasons to support this 
legislation. One is that without a focused, deliberate effort to 
restore and maintain these historic forests, we will lose them forever. 
The other is that everyone I've talked to on both sides of the aisle 
supports the goal of keeping some parts of our National Forests looking 
like they did for thousands of years. Who would not want our children, 
grandchildren and descendants over the coming centuries to be able to 
walk among native forests and know the story of how those forests came 
to be? As a parent, I find it outrageous that anyone would oppose this 
goal.
    I'm pleased to welcome our witnesses today. I'm especially glad 
that Dr. Thomas Bonnicksen from Texas A&M University could be here. Dr. 
Bonnicksen's research for more than 30 years on restoring and 
sustaining America's native forests, documented in his book [HOLD BOOK 
UP] ``America's Ancient Forests'', provides a strong foundation for 
this legislation. I'm also very pleased to have Mr. John Barnett, 
Chairman of the Cowlitz Indian Tribe, here today from the State of 
Washington. We also welcome Mr. Steve Holmer of the American Lands 
Alliance and Ms. Sally Collins of the Forest Service and look forward 
to their testimony.
                                 ______
                                 

  STATEMENT OF THE HON. MICHAEL SIMPSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Simpson. Thank you, Mr. Chairman and thank you for 
scheduling this important hearing on H.R. 2119, The National 
Historic Forests Act. This legislation is intended to initiate 
a dialogue, and I repeat, initiate a dialogue concerning the 
importance of restoring and protecting our native forests. 
Recent catastrophic wildfire forest health concerns and native 
forests that are being lost or substantially altered provide 
ample evidence for the need to have this discussion and begin 
restoring and protecting our historic forests.
    I am willing to work with all who have an interest in 
saving our native forests. This bill is not written in stone. 
For all intents and purposes, it is a discussion draft, and I 
look forward to hearing the comments, suggestions or concerns 
of the panel and of my colleagues relative to this issue.
    This common-sense legislation allows for the creation of a 
National Register of Historic Forests for the purpose of 
restoring and protecting native forests. Local communities will 
nominate national forest lands for inclusion in the National 
Register of Historic Forests. Once the forest lands are placed 
on the national register, a Committee comprised of State and 
local officials, forest restoration experts and other 
stakeholders who have an interest in protecting and restoring 
the National Historic Forests, will be responsible for drafting 
a management plan and guiding the restoration and maintenance 
of the National Historic Forests.
    More importantly, H.R. 2119 allows local communities to 
reclaim and preserve their ecological and cultural heritage 
while embracing and utilizing local knowledge and talent. These 
are people who lived and worked in and around our national 
forests and they have a vested interest in restoring and 
maintaining native forest conditions.
    People may say we need to study the issue more. We need 
more information. We do not know enough to act. However, the 
reality is that not doing anything poses considerable risk. For 
instance, the U.S. Forest Service and the General Accounting 
Office estimate that more than 72 million acres of our national 
forest lands are at risk of uncharacteristic wildfires. That is 
unacceptable. We must restore our native forests to a more 
healthy and natural state.
    Before coming to Congress, I was a dentist. If I had a 
patient with tooth decay and I were to say let's wait a few 
years to fix your tooth when we have more information and more 
knowledge than we have today concerning the possible treatments 
in tooth decay--I would not do that. I would treat my patient 
immediately. If I did not, my patient would surely lose his or 
her tooth and I would lose my license. Forestry, like 
dentistry, is an ever evolving and growing science. We know a 
lot more now than we did in the past. Sure, we still have more 
to learn. There is always more research to be done and more 
data to collect and analyze. However, forestry, in its present 
state, is a sophisticated science. Our foresters have a 
scientific knowledge and the tools they need to begin restoring 
our native forests now.
    In the West, we are losing our pine forests. Our national 
forest lands experience high tree density and abnormally high 
levels of vegetation. Our forests are choked full of trees and 
brush that will ultimately lead to irreparable harm and forced 
mortality. In addition, our forests suffer from invasive non-
native species and profound structural changes, which result in 
a lack of forest diversity. These unnatural conditions lead to 
loss of nutrients, susceptibility to disease and insect 
infestation and catastrophic fire. In turn, loss of native 
forest conditions leads to loss of critical habitat for 
threatened and endangered species.
    By not acting, we will lose our native forests. This is not 
a proposition I willing to accept. Mr. Chairman, I believe this 
is one of the potentially most important bills to come before 
Congress in a number of years, that will allow us to address 
this issue of our native forests and how we can restore them to 
a healthy condition. I look forward to working with the 
Committee, and as I emphasized in my testimony, this is a 
working draft in which I hope members from both sides of the 
isle and all stakeholders are willing to sit down and talk 
about the goal of restoring our historic forests and how we 
might achieve that. I thank the Chairman for holding this 
hearing.
    [The prepared statement of Mr. Simpson follows:]

 Statement of The Honorable Mike Simpson, a Representative in Congress 
                        from the State of Idaho

    Mr. Chairman:
    Thank you for scheduling this important hearing on H.R. 2119, the 
National Historic Forests Act.
    This legislation is intended to initiate a dialogue concerning the 
importance of restoring and protecting our native forests. Recent 
catastrophic wildfires, forest health concerns, and native forests that 
are being lost or substantially altered provide ample evidence for the 
need to have this discussion and begin restoring and protecting our 
historic forests. I am willing to work with all who have an interest in 
saving our native forests. This bill is not written in stone. For all 
intents and purposes it is a discussion draft, and I look forward to 
hearing the comments, suggestions, and concerns of the panel and of my 
colleagues.
    This common sense legislation allows for the creation of a national 
register of historic forests for the purpose of restoring and 
protecting native forests. Local communities will nominate national 
forest lands for inclusion in the national register of historic 
forests. Once the forest lands are placed on the national register, a 
committee comprised of state and local officials, forest restoration 
experts, and other stakeholders who have an interest in protecting and 
restoring national historic forests will be responsible for drafting a 
management plan and guiding the restoration and maintenance of the 
national historic forest.
    More importantly, H.R. 2119 allows local communities to reclaim and 
preserve their ecological and cultural heritage, while embracing and 
utilizing local knowledge and talent. These are people who have lived 
and worked in and around our national forests, and they have a vested 
interest in restoring and maintaining native forest conditions.
    People will say: we need to study the issue more; we need more 
information; we do not know enough to act. However, the reality is that 
not doing anything poses considerable risks. For instance, the U.S. 
Forest Service and the General Accounting Office estimate that more 
than 72 million acres of national forest land are at risk of 
uncharacteristic wildfire. That is unacceptable. We must restore our 
native forests to a more healthy and natural state.
    Before coming to Congress I was a dentist. If I had a patient with 
tooth decay, would I say ``let's wait a few years to fix your tooth 
when we have more information and knowledge, and we will, concerning 
tooth decay and possible treatments?'' No. I would treat my patient 
immediately. If I did not, my patient would surely lose his or her 
tooth, and I would lose my license.
    Forestry, like dentistry, is an ever evolving and growing science. 
We know a lot more now, than we knew in the past. Sure, we still have 
more to learn. There is always more research to be done, more data to 
collect and analyze. However, forestry in its present state is a 
sophisticated science. Our foresters have the scientific knowledge and 
tools they need to begin restoring our native forests, now.
    In the west, we are losing our pine forests. Our national forest 
lands experience high tree density and abnormally high levels of 
vegetation. Our forests are choked full of trees and brush that will 
ultimately lead to irreparable harm and forest mortality. In addition, 
our forests suffer from invasive non-native species and profound 
structural changes, which result in a lack of forest diversity. These 
unnatural conditions lead to loss of nutrients, susceptibility to 
disease and insect infestation, and catastrophic fire. In turn, loss of 
native forest conditions leads to loss of critical habitat for 
threatened and endangered species.
    By not acting, we will lose our native forests. This is not a 
proposition I am willing to accept.
                                 ______
                                 
    Mr. McInnis. Okay, Mr. Simpson, I appreciate your 
statement. The hearing record will be open for 10 days for 
additional responses. Let's move on to our panels. I would like 
to now introduce our first panel, I am getting a little 
confusion here. Just a moment. My apologies to the first panel. 
I would like to introduce the first panel. First, we have Dr. 
Thomas Bonnicksen, and apparently, Doctor, this is your book 
and it is well-acknowledged in the field out there. You have 
researched restoring and sustaining America's native forests 
for more than 30 years, and you have documented your findings 
in this book. The book is widely read by the staffs up here in 
regard to forest and forest management. Apparently, it is well-
done document. As I understand, it provides a strong foundation 
for your bill, Mr. Simpson--Mr. John Barnett, Chairman of the 
Cowlitz Indian Tribe, State of Washington, CEO and owner of 
Cowlitz Timber, Inc.; and Mr. Steve Holmer, Campaign 
Coordinator for the American Lands Alliance.
    I want to remind our witnesses, under the rules of this 
specific Committee, you are allotted 5 minutes. You will have a 
timer that you see, that sits in front of you, that will give a 
warning when you are in the yellow zone. As a courtesy to other 
witnesses, I would expect you to stop when the red light comes 
on. I would now like to recognize my colleague, Congressman 
Baird, who every time I see his designation as Democrat from 
Washington, I have to remind him he used to be a Republican 
from Colorado. I know the Colorado part is right. I am not sure 
the Republican part is. Anyway, Mr. Baird, I know that you 
would like to make the introduction. You have asked for a 
special request and the chair recognizes you for that 
introduction.
    Mr. Baird. I thank the chair very much. It is a real 
privilege to be here. I thank you for the invitation. John 
Barnett is, as you mentioned, the chair of the Cowlitz Tribe 
and CEO and owner of Cowlitz Timber. John has a long interest 
in forest management and the forest products industry in 
Washington State and elsewhere. He has been a strong leader of 
his tribe and active in timber issues, and I am pleased to 
welcome John back here. The Cowlitz people are very, very close 
to the final step of tribal recognition. I wish them all the 
success in that effort and look forward to John's testimony, as 
well.
    I happen to also know Steve Holmer, and I am glad to see 
him here today, and look forward to his commentary. He has been 
very active in forest issues, as well.
    Thank you, Mr. Chairman.
    Mr. McInnis. Mr. Holmer, are you going to take the table 
and testify? That is where you have to testify from. Dr. 
Bonnicksen, I am going to go ahead and proceed with you. You 
may proceed as you wish.

STATEMENT OF THOMAS BONNICKSEN, PH.D, PROFESSOR, DEPARTMENT OF 
              FOREST SCIENCE, TEXAS A&M UNIVERSITY

    Mr. Bonnicksen. Well, I would like to say in the beginning 
that we should all be grateful to Congressman Simpson for 
introducing the National Historic Forest Act. I think this will 
be among the most important land use laws that we have ever 
enacted, since the beginning of the public domain in 1781. That 
is, of course, if Congress has the wisdom and foresight to 
actually carry out Congressman Simpson's vision for America's 
forest, which is to restore our heritage for this and future 
generations.
    There is an urgent need to restore our native forests. What 
European explorers originally saw were forests of amazing 
diversity, immense trees, and awe-inspiring vastness. If I can 
just quote briefly from Verrazano, an Italian navigator who 
sailed along the East Coast in 1524, he summarized what most 
explorers saw. He reported, ``the spacious land, full of the 
largest forests, some thin and some dense, clothed with various 
sorts of trees, with as much beauty and delectable appearance 
as it would be possible to express.''
    These were truly magnificent forests that we inherited when 
we came to this land. They occupied about 45 percent of the 
lower 48 States, but since that time we have lost 12 percent of 
our native forests to cities and farms. The remaining forests 
are in a serious state of decline--crumbling, battered, and 
burnt. To give you some examples, in the East, the White Pine 
forests that so impressed the colonists with their gigantic 
trees that they saw as possible sources of masts--in fact, they 
called them Mast Pine--occupied terraces along rivers for 
miles; magnificent forests that no longer exist, and the 
recovery of forests in the Northeast is not recovering these 
white pine forests. On the contrary, what we are getting is 
primarily maple forests. Oak-chestnut is all but extinct as a 
forest-type because of the chestnut blight, but we think 
genetically that in a very few years, we will bring it back. 
That will give us an opportunity to recover the oak-chestnut 
forests of the East.
    In the Southeast, we had 90 million acres of Long-leaf 
Pine. The conquistadors, William Barrett and others have waxed 
philosophical about the beauty and diversity of this forest. In 
fact, it was the most diverse forest, in terms of plant life, 
of any forest in North America when we found it. It is all but 
gone, almost all 90 million acres. White and Red Pine are in 
the same situation in the Lake States. In the Midwest, we know 
how little of the oak-savanna is left, a place so beautiful 
that even hardened soldiers waxed philosophical in their 
journals when they saw it.
    Can you imagine oaks in an immense grassland, with bison 
and elk and deer, and all the other wildlife in abundance--long 
gone, but not forgotten and not beyond restoration? The Inland 
West--we know Ponderosa Pine is in a very sorry state. In 
particular, in the Bitterroot Valley, last year, we lost over 
100,000 acres of Ponderosa Pine forests. This was the forest, 
historically, that was first seen by Lewis and Clark and 
described for the first time in a written account as a historic 
forest. Ponderosa Pine, in that area, could have been restored 
quickly and easily, because most of the trees were in a state 
that would easily make that possible.
    Aspen--we are losing it throughout the West. On the Pacific 
Coast, the oak woodlands and the valley of California, the 
Great Central Valley, are almost gone, the valley-oak 
woodlands. The ones on the hillsides are disappearing quickly 
as they are converted into brush fields or decimated by 
disease. The mixed conifer forests in the Sierra Nevadas are in 
a similar plight, their densities are astronomical, and now we 
have a plan by the Forest Service for the Sierra Nevadas that 
would take what was 22 percent of that original native forest, 
that was very diverse and all age classes were represented--22 
percent of it was an old forest, historically. The plan the 
Forest Service has for that forest is to increase that to 64 
percent in 10 decades. The diagram illustrating that is in my 
written testimony.
    That is unsustainable. That means fires will be of immense 
size in the future. It is a forest that never existed in the 
past and could never exist in the future, if it had not been 
created by that plan. The douglas fir forests in the Pacific 
Northwest are gradually disappearing as each tree falls and is 
replaced by western hemlock, as you will hear from John 
Barnett.
    What should we restore? That is always the question. Well, 
we should restore forests that resemble those that were first 
seen by the first explorers; the conquistadors in the South, 
the trappers in the West, the fur traders and Jesuit priests in 
the North, the colonists in the East. They were the ones who 
first saw these forests. They were the ones who first described 
them, and the descriptions are marvelous to read. Why should we 
choose that period? Well, that represents 18,000 years of 
adaptation, since the Ice Age. No forest in North America could 
be more diverse and beautiful than the ones that existed at 
that time. Of course, that was also a period when the climate 
was similar to that of today, and ultimately, it is the only 
forest we can restore because it is the only forest we can 
document.
    Mr. McInnis. Doctor, I am going to have to ask you to wrap-
up. I let you go a minute over time, but as a courtesy to the 
others--
    Mr. Bonnicksen. Thank you.
    [The prepared statement of Mr. Bonnicksen follows:]

  Statement of Dr. Thomas M. Bonnicksen, Professor of Forest Science, 
                          Texas A&M University

INTRODUCTION
    My name is Dr. Thomas M. Bonnicksen. I am a professor in the 
Department of Forest Science at Texas A&M University specializing in 
restoration forestry. I have conducted research on restoring and 
sustaining America's native forests for more than thirty years. I have 
written over one hundred publications and I authored the book titled 
America's Ancient Forests: from the Ice Age to the Age of Discovery 
(Copyright January 2000, John Wiley & Sons, Inc., 594 pages). The book 
documents the history of North America's native forests. It gives 
special emphasis to the way our native forests appeared at the time of 
European settlement and the role Native American's played in their 
development. Additional biographical information is available in the 
biographical summary at the end of this document.
CONTENTS
    1. The need to restore America's historic native forests
    2. The need for a new law
    3. The need for a reference forest
    4. The need for restoration standards
    5. The need to include native peoples
    6. The need for cost-effective management
    7. The need for local participation
    8. Conclusion
    9. Biographical summary
THE NEED TO RESTORE AMERICA'S HISTORIC NATIVE FORESTS
    What the first European explorers saw were forests of amazing 
diversity and awe-inspiring vastness. They felt especially drawn to 
trees of immense size and great age that no longer existed in Europe. 
Such trees grew everywhere in North America. Giovanni da Verrazzano, an 
Italian navigator who sailed along the East Coast in 1524, summarized 
what European explorers reported when they saw America's native 
forests. ``The spacious land,'' he noted in his journal, ``full of the 
largest forests, some thin and some dense, clothed with various sorts 
of trees, with as much beauty and delectable appearance as it would be 
possible to express.'' When Verrazzano wrote these words, native 
forests covered 45% of the lower 48 states. Since that time, about 12% 
of our native forests have been scraped away for cities and farms. 
Today, few of our remaining native forests still resemble their former 
glory and most of these are crumbling, battered, and burnt.
The Density Problem
    In the Southwest, ponderosa pine forests like those that burned at 
Los Alamos are 31 times denser than the original forests. A comparable 
change occurred in mixed-conifer forests in the
    San Bernardino Mountains of southern California where density 
increased by 74 percent in 60 years. Pockets of dense second-growth 
forest also cover nearly one half of Redwood National Park. Some of 
these forests have reached the astronomically high densities of 2,000 
to 20,000 trees per acre. Under such crowded conditions, a forest will 
stagnate for many decades or even centuries. This has detrimental 
effects on wildlife and other plants, and it makes a forest more 
susceptible to wildfire, insects, and disease.
The Wildfire Problem
    Frequent fires set by Native Americans and lightning used to keep 
native forests open, but now they are so thick that any fire has the 
potential for turning a forest into a colossal furnace. Unlike the 
original native forests, fires also can spread freely across vast areas 
because trees have grown to similar sizes, and there are fewer patches 
of young trees, meadows, and clearings to slow the flames.
    The mammoth wildfires that scorched nearly half of Yellowstone 
National Park during the summer of 1988 were significantly larger than 
any fire that occurred there in the past 350 years. One reason the 
fires were so large is that multilayered older forest covered nearly 
65% of the landscape. Historically, such older forests only covered 30% 
of the landscape. Furthermore, wildfires blackened 1.5 million acres 
and cost nearly $1 billion in eastern Oregon, eastern Washington, 
Idaho, Montana, and portions of Utah and Nevada during the summer of 
1994. Nationwide, more than 9,000 homes were destroyed by wildfires in 
the previous decade. The fires of 2000 also burned over 6.9 million 
acres, which is three times the ten-year average. These fires also 
destroyed over 200,000 acres of ponderosa pine forest in the Bitterroot 
Mountains of Montana that still had some of the characteristics of a 
historic forest. Lewis and Clark wrote the first description of a 
native ponderosa pine forest in the Bitterroots, which further 
magnified the loss. In addition, damages caused by the Los Alamos fire 
in New Mexico exceeded $1 billion. That fire also destroyed 260 homes 
and 1500 archaeological sites. Most of these fires burned hotter than 
would have been the case in the original native forests.
Native Forests in Decline
    In the East, even though trees are becoming denser, stately forests 
of white pine no longer cover large areas, and few trees reach the 
great size of those that existed at the time of settlement. The oak-
chestnut forest is nearly extinct. Sugar maple and red maple also are 
taking over northern and eastern hardwood forests and replacing oak - 
our national tree. The vast longleaf pine savannas that spread over 
much of the South are nearly gone as well. This loss is especially 
tragic because the historic longleaf pine forest was not only beautiful 
but it also had the highest number of plant species of any forest in 
North America. In the Midwest, we have lost most of the oak-hickory 
savanna that once fringed the Great Plains and held early travelers 
spellbound because of its beauty and richness of wildlife.
    In the Inland West, juniper is spreading within pinon juniper 
woodlands and replacing grasslands. Similarly, once open stately groves 
of ponderosa pine are becoming so thick with small trees that grass and 
wildflowers can no longer grow within the forest. Because of increases 
in the density of pine and other conifers, aspen forests are rapidly 
disappearing as a distinct forest type throughout their range. In 
addition, white fir is replacing Douglas-fir forests in the Southwest, 
and spruce and fir are replacing lodgepole pine and western larch 
forests in the northern Rocky Mountains.
    In California and Oregon, thick forests of short lived and small 
white fir are replacing what were once open and patchy forests of 
ponderosa pine, giant sequoia, and other conifers that stood like 
towers on the mountainsides. This invasion of white fir was 
unanticipated when Native Americans were removed from these forests in 
the 19th century and fires were put out. However, the U. S. Forest 
Service Region 5 plan for Sierra Nevada forests adopted in 2001 
actually intends to accelerate this invasion. The Forest Service plan 
calls for increasing old multilayered forests that covered 12% of the 
landscape in historic native forests to the unnaturally high level of 
nearly 64%. Fires will also become less frequent but more severe in 
these old forests. This will increase the size of patches in the mosaic 
and reduce the amount of edge and diversity of habitats for wildlife. 
As a result, many species of plants and animals that live in younger 
forests will decline in numbers while species that live in dense old 
forests, such as the California spotted owl, will increase to 
unnaturally high numbers. Illustrations showing the difference between 
the historic native forest mosaic and the forest mosaic that is planned 
for the Sierra Nevada are shown in Figures 1 and 2. Regrettably, these 
artificially dense old forests will no longer represent the beauty and 
diversity of the historic native forests. This is a tragic and 
unnecessary loss of our Nation's natural and cultural heritage.
    Brush and conifers are also replacing open oak woodlands that used 
to spread over vast areas on lower slopes and in valleys in California 
and Oregon. In California and the Pacific Northwest, some cathedral 
groves of Douglas-fir are reaching the end of their life expectancy and 
being replaced by less stately forests of shade tolerant species such 
as western hemlock. Even the coast redwood forest is likely to dwindle 
in area as a more shade tolerant forest of hemlock, fir, and bay 
replaces it.
THE NEED FOR A NEW LAW
    There is an urgent need for action. Fire, insects, disease, decay, 
invasive non-native species, the replacement of pioneer species by 
shade-tolerant species, and urban development are rapidly destroying 
America's historic native forests. The physical evidence needed to 
understand and restore these native forests is being lost as well. We 
must act now or a vital part of our nation's natural and cultural 
heritage will be gone forever.
    Posterity will include The National Historic Forests Act of 2001 
(H.R. 2119) among the most important land use laws that Congress has 
enacted since the origin of the Public Domain when the original 
thirteen colonies began ceding their western lands to the central 
government in 1781. Congress has passed many land use laws since that 
time. However, none of these laws has addressed restoring the 
magnificent native forests that European explorers found and described 
when they arrived in North America. Nor have we used the knowledge of 
native peoples who helped sustain our native forests. The National 
Historic Forests Act will help to recover America's forest heritage 
because it addresses both issues.
    Our national parks, which began with Yellowstone in 1872, protect 
spectacular scenery, natural wonders, historic objects, and wildlife 
rather than historic landscapes. The Park Service also emphasizes 
leaving forests and wildlife untouched rather than restoring and 
sustaining their history. The National Forest System, which began with 
the Forest Reserve Act of 1891, addresses our society's contemporary 
need for wood, water, wildlife, recreation, and other goods and 
services that forests produce. The Forest Service protects historical 
sites, but they are not the primary goal of management. Bureau of Land 
Management lands serve similar purposes. The purpose of the National 
Wildlife Refuge System is narrower, concentrating on wildlife and 
fisheries, and their habitat. Even the Wilderness Act of 1964 serves 
current social needs rather than historical purposes by providing 
relatively untouched landscapes where people can find solitude.
    Some laws concentrate on our nation's pre-history and history, but 
they focus primarily on fossils, archaeological sites, historic 
buildings, and artifacts rather than historic native landscapes. These 
include the National Historic Preservation Act of 1966 and the American 
Antiquities Act of 1906. The latter act even specifies that national 
monuments must be ``confined to the smallest area compatible with 
proper care and management of the objects to be protected.'' What is 
missing from existing laws is an act that restores and sustains the 
magnificent native forests that European explorers found and described 
when they arrived in North America.
THE NEED FOR A REFERENCE FOREST
    The original native forests that European explorers found in North 
America provide excellent models for present and future forests because 
of their beauty, diversity, sustainability, productivity, and abundance 
of wildlife. Pre-European settlement forests also provide the most 
scientifically sound references for forest restoration. They were the 
product of thousands of years of development and adaptation, and they 
existed during a period when the climate fluctuated in a manner similar 
to what occurs today. In addition, they can be easily documented using 
archaeological materials, historical accounts, old photographs, early 
land surveys, and existing vegetation. These methods can also be used 
to document the processes that created and sustained native forests. On 
the other hand, forests from an earlier time cannot be restored because 
they can only be described in vague terms from pollen and fossils. Even 
so, we cannot duplicate a historic native forest, but we can 
approximate it based on a reference forest that provides an achievable 
goal for restoration.
    The first step in restoring a forest is selecting the historical 
period for the reference forest. A reference forest does not represent 
a particular point in time. It represents a period of time and the 
variations in forest structure that were characteristic of that period. 
The historic period for a reference forest will vary by region because 
the age of exploration lasted several centuries.
    The Spanish conquistadors became the first Europeans to wander deep 
into America's native forests. Spanish soldiers marched through the 
vast pine forests of the Southeast and the pinon-juniper woodlands of 
the Southwest in the 16th century, but they did not see the oak 
woodlands and towering coast redwoods of California until the 18th 
century.
    English and Dutch and other explorers and colonists stayed close to 
the eastern seaboard. They only glimpsed the oak-chestnut, eastern 
white pine, beech-maple, and red spruce-fir forests that graced the 
colonial landscape in the 15th century. It was not until the 17th and 
18th centuries that they documented these historic forests.
    French soldiers of fortune, fur traders, and Jesuit priests 
followed closely behind the colonists. They paddled and trudged their 
way into the white spruce forest of Canada and Alaska, the Great Lakes 
pine forests, and the oak-hickory forests and savannas filled with 
wildlife on the edge of the Great Plains. Exploration began in the 16th 
century, but like the colonists in the East, most observations of these 
native forests were recorded in the 17th and 18th centuries.
    Lewis and Clark's Corps of Discovery, the fur traders that preceded 
them and the waves of trappers, scientists, and settlers that followed 
them, came last. They had a chance to marvel at America's majestic 
ponderosa pine, lodgepole pine, Pacific Douglas-fir, and giant sequoia 
forests in the West primarily in the 18th and 19th centuries.
THE NEED FOR RESTORATION STANDARDS
    Standards are essential for documenting the reference forest, 
setting objectives, and judging the success or failure of a forest 
restoration project. General standards should guide the restoration of 
native forests at the national level. This is necessary because all 
native forests share a few timeless qualities. First among these is the 
patch, which is a relatively uniform group of plants. Second is 
succession, or the way a patch of forest advances from one stage of 
development to another after recovering from a disturbance. Third is 
the shifting mosaic, or the proportions of different stages of 
development that make up the forest mosaic and the way they shift from 
place to place in the mosaic as each patch of forest ages. Therefore, 
the character of the reference forest mosaic is the key to forest 
restoration.
    The general standards should include the relative proportions of 
patches of vegetation in various stages of development that formed the 
reference native forest mosaic, and the sizes, shapes, and orientation 
of patches that reflect the forces that created them. The composition, 
ages, sizes, and density of plants and standing and fallen dead trees 
within patches should also be documented. Finally, the composition of 
native wildlife that depended on the diversity of habitats in the 
reference native forest mosaic should be incorporated into the restored 
forest. Some of the information needed to describe a reference forest 
is shown in Figure 3.
    The details that fit within these general forest restoration 
standards will depend on what is feasible, desirable, and historically 
appropriate in particular forests. They must be tailored to an 
individual forest to provide an ecologically and economically 
sustainable target for restoration. Ultimately, the goal should be to 
restore a forest to a condition that resembles the original native 
forest, simulates the range in proportions of successional stages that 
characterized the native forest mosaic during the historic period, and 
that serves society's social and economic needs.
THE NEED TO INCLUDE NATIVE PEOPLES
    Europeans seemed surprised to find that most of America's native 
forests were open rather than dark and dense. They soon realized that 
Indians used fire to help keep them that way. So, they had little 
trouble traveling within forests unless they followed streams or 
crossed marshes where thickets grew, or wandered into piles of trees 
blown down by strong winds. Even here, travel was sometimes easy 
because Indians burned trails in the forest, and cleared trees from 
many floodplains for cornfields and hunting grounds.
    The plants and game upon which American Indians depended thrived in 
patchy forests that included young trees, old trees, meadows, and 
various other stages of growth. Indians knew this from experience, so 
they burned forests to keep them patchy. This provided them with an 
abundance and variety of game and plant foods, as well as many other 
benefits.
    Native Americans were an integral part of America's native forests. 
The structure of a forest and the forces that shape it work together; 
they are inseparable and mutually dependent parts of a single whole. 
Change one part and the other changes. It becomes a different forest. 
Therefore, the restoration of native forests should ensure that future 
generations have enduring and living examples of the historic bond that 
existed between America's native forests and her peoples.
THE NEED FOR COST-EFFECTIVE MANAGEMENT
    A forest cannot be preserved because it is alive and continually 
changes. It must be managed. Therefore, the only way to restore and 
sustain our native forests is through active or hands-on management at 
a cost that taxpayers are willing to pay. Reintroduction or control of 
plant and animal species, planting, precommercial and commercial 
thinning, grazing, prescribed burning, control or suppression of fire, 
timber harvesting or, where appropriate and effective, temporary or 
permanent protection should all be available to a manager who is 
restoring a historic native forest. Placing restrictions on tools and 
methods could seriously compromise a restoration project or make the 
restoration of a native forest impossible. The nature of the tools and 
techniques used to restore a forest are unimportant. The only thing 
that matters is providing this and future generations with an enduring 
legacy of dynamic and sustainable historic native forests.
    Prescribed fire would come closer than any tool toward mimicking 
the effects of the historic Indian and lightning fires that shaped most 
of America's native forests. However, there are good reasons why it is 
declining in use rather than expanding. Air quality restrictions are 
playing an increasing role in restricting prescribed fire. High cost is 
also a major barrier to its use. Prescribed fire can cost from $75 to 
$1000 or more an acre. This would be prohibitively expensive for 
restoring historic native forests throughout the nation, especially 
since prescribed fire does not generate revenue that could help offset 
the cost of management. In addition, there are limited periods and 
opportunities when conditions are appropriate to burn. Prescribed fire 
is also inherently dangerous. Escaped fire poses a serious hazard to 
the safety and property of people living near forests. Finally, many of 
today's forests are much thicker and filled with more dead trees than 
historic forests. Prescribed fire is ineffective and unsafe in such 
forests. Moreover, dense piles of fitter now surround large trees in 
many forests. Even a light prescribed fire produces so much heat in 
such fuel that it can kill the largest trees by cooking their roots. 
Such losses would be unacceptable when restoring forests that lack 
enough old trees to properly represent the historic native forest.
    Fortunately, we do not have to rely on prescribed fire to restore 
America's historic native forests. We have other tools available, 
although prescribed fire is still an essential tool in many situations. 
Over several centuries, foresters in Europe and the United States 
developed a wide range of regeneration techniques that can effectively 
restore and sustain our native forests. They can be used in ways that 
do not damage streams and soils, unlike wildfires, and they can even 
enhance fisheries. Likewise, they can provide openings for shade-
intolerant trees, such as Douglas-fir and pine, and make the openings 
look like fire created them (Figures 4 and 5 show some of the 
differences in regeneration methods used in restoration forestry and 
traditional forestry in a Pacific Douglas-fir forest). These techniques 
can also restore forests composed of trees that grow in the shade that 
were sustained by windstorms, such as native beech-maple, and maple-
basswood forests. In addition, they can furnish adequate amounts of 
standing and fallen dead trees to replenish soil nutrients and provide 
homes for wildlife. They can even help endangered species by restoring 
the variety of habitats that existed in native forests where they 
thrived. They can perform these tasks while also reducing visible signs 
of management to a minimum. In short, we can use a chainsaw or 
mechanical harvester to sculpt a historic forest from today's forest in 
the same way that Michelangelo used a hammer and chisel to create 
beauty from stone.
    Whenever it is safe, effective, and ecologically and economically 
acceptable, management to sustain a restored forest should accommodate 
the effects of natural disturbances such as wind, lightning fires, and 
insect and disease infestations. Similarly, Indian tribes should be 
permitted to conduct traditional land use and management activities 
that help to restore and sustain a native forest so long as they were 
part of its history.
    Every effort must also be made to reduce the cost of restoration 
and maintenance. Otherwise, we will not be able to restore enough 
native forests to fully represent America's unique natural and cultural 
history. Unlike Michelangelo who sold his art to pay the cost of 
creating it, we cannot sell a restored historic native forest. However, 
we can sell wood and other products harvested from the forest when 
restoring and sustaining it. This would minimize the use of 
appropriated funds so that we can restore forests on a large scale. It 
would also provide society with essential goods and services and create 
much needed jobs in rural communities.
THE NEED FOR LOCAL PARTICIPATION
    Local participation in planning and managing historic native 
forests is essential because no one person or group can fully 
understand and manage all types of native forests. Each native forest 
is unique, even though all forests share the mosaic structure. Each 
native forest developed in a particular place in response to local 
influences. Even native forests of a particular type can differ enough 
to warrant a separate plan for their restoration and maintenance. To 
illustrate, the northern Pacific Douglas-fir forest grows in a wetter 
climate than the warmer and drier southern part of the forest. 
Consequently, fires are less frequent and more severe, and patches are 
larger, in the north than in the south. This is just one among many 
differences that exist between these two parts of the same forest.
    The restoration and maintenance of each historic native forest can 
only be effective if a panel of local citizens who are familiar with 
the forest develop the restoration plan and monitor its implementation. 
The local panel should consist of scientists and public and private 
forest managers who work in that forest, as well as other knowledgeable 
citizens; including a representative of local Indian tribes. Existing 
literature and the experience of those involved should form the basis 
for most decisions. Research should be limited to only the most crucial 
questions and performed quickly. Long-term research should not delay 
the development and execution of a restoration plan because the problem 
of restoring America's historic native forests is too urgent.
CONCLUSION
    America's original native forests are as much a part of the 
nation's history as any building, ruin, or artifact. Native forests 
influenced the development of our culture just as our culture 
influenced native forests. They are inseparable parts of the same 
heritage. We cannot understand or portray one without the other. In 
addition, this relationship can only be appreciated at a scale the fits 
the scale of our historic landscapes. Restoring historic native forests 
will improve the health and diversity of the Nation's forests, reduce 
threats to local communities from wildfires, and assist economic growth 
and development. More importantly, it will fulfill the need for our 
citizens to see and experience the native forests that influenced our 
country's development and helped to mold our spirit of enterprise and 
freedom. Restoring and sustaining examples of historic native forests 
is a worthy goal for America.
BIOGRAPHICAL SUMMARY
    Dr. Thomas M. Bonnicksen is a professor in the Department of Forest 
Science at Texas A&M University specializing in restoration forestry. 
He earned a B. S. in forestry (with minors in wildlife and range), a M. 
S. degree in forest ecology, and a Ph.D. degree in forest policy from 
the University of California-Berkeley.
    Dr. Bonnicksen has conducted research on restoring and sustaining 
America's native forests for more than thirty years. He has written 
over one hundred publications and he authored the book titled America's 
Ancient Forests: from the Ice Age to the Age of Discovery (Copyright 
January 2000, John Wiley &' Sons, Inc., 594 pages). The book documents 
the history of North America's native forests. It gives special 
emphasis to the way America's native forests appeared at the time of 
European settlement and the role Native American's played in their 
development. He is also cofounder of the International Society for 
Ecological Restoration and a former member of its board of directors. 
He served on many federal and state advisory committees, most recently 
as a member of the U. S. Senate and House of Representative's 
California Forest EIS Review Committee and the U.S. House of 
Representatives' Forest Health Science Panel. He is a 33-year member of 
the Society of American Foresters, and a former university Department 
Head, California state park commissioner appointed by Governor Reagan, 
and National Park ranger.
                                 ______
                                 

    [Attachments to Mr. Bonnicksen's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T3180.001
    
    [GRAPHIC] [TIFF OMITTED] T3180.002
    
    [GRAPHIC] [TIFF OMITTED] T3180.003
    
    [GRAPHIC] [TIFF OMITTED] T3180.004
    
    [GRAPHIC] [TIFF OMITTED] T3180.005
    
    Mr. McInnis. Thank you, Doctor.
    Next, Mr. Barnett, you may proceed.

  STATEMENT OF JOHN BARNETT, CHAIRMAN, COWLITZ INDIAN TRIBE, 
   STATE OF WASHINGTON, CEO AND OWNER OF COWLITZ TIMBER, INC.

    Mr. Barnett. Thank you, Mr. Chairman. I would like to thank 
you and the Committee and Mr. Simpson for inviting me here 
today. I think this bill is something that I personally have 
looked forward to for a long, long time, wondering when in the 
world is it ever going to happen. Who is John Barnett? John 
Barnett is a son of a Finn lady and a Cowlitz Indian. I am 
sometimes referred to by my colleagues as the big Finndian. I 
am from a little wide spot in the road called Naselle, 
Washington, which is just about 10 miles from where Doug 
Crandall was raised, across the Columbia River.
    I have had 50 years of experience, actual hands-on 
experience in our forests. I have been involved in all phases 
of forestry, from logger, timber cutter, to presently manager, 
CEO and owner of 5,000 acres of timberland and a company, along 
with my son, Cowlitz Timber, Inc. Over the years, I have 
observed all of the changes that man has made to our forest, 
some good and a lot of bad. What do forests mean to Native 
Americans? Our view of the forest is much, much different than 
the average citizen of the United States. Forests are one of 
the cornerstones of our culture, along with salmon.
    Tribal uses, historically, were different than those of 
white society. We use the forests for ceremonial purposes, 
spiritual purposes. We use them for vision quests, which I have 
been on many times, to seek my Tamanawas, which allows me to 
learn from my spirit master, what to do, and when to do it. We 
also realize that the forest was put there for our use and our 
survival. Hunting and fishing and the other resources of the 
forests are used to live as Indian people. This has been going 
on since time immemorial.
    I am going to tell you briefly what is happening to our 
forests in the Pacific Northwest through the eyes of the 
Cowlitz people. We are deeply saddened by the loss of our 
national forests from what they once were in aboriginal times 
to the preservation forestry that is the myth that we are 
living under today. What is really happening to the forests of 
the Pacific Northwest? They are gradually evolving from the 
mixed stand timber; Douglas Fir, Sitka Spruce, Western Red 
Cedar, Hemlock, White Pine, to a monoculture of Western 
Hemlock.
    Here is the Western Hemlock story. Western Hemlock is the 
only conifer species that will grow in the shade and thrive. As 
our old-growth forest rapidly disappears, it is being replaced 
by a monoculture of Western Hemlock. Under our present rules 
and regulations in the United States, we do not have the 
advantages of fire to cleanse the earth. As a result, we are 
looking for some monumental forests fires that will make the 
ones in Montana a year ago look like bonfires. I can foresee 
the day when a fire will burn from Seattle completely through 
the Olympic National Forests. As the fuel builds up on the 
ground, this is going to happen.
    I have specifically done a lot of my work in the Quinault 
Natural Area. This is an area that was established in 1931 for 
study and education of the American people in forestry. At that 
time, it was a stand of mixed, old-growth trees. Today, over 50 
percent of that stand of timber, 1000 acres, has turned to 
Western Hemlock, because every time one of those big trees hits 
the ground, for whatever reason; dying a natural death, blown 
over by the wind or whatever, it is not replaced by another 
Douglas Fir, another cedar, another spruce. It is replaced by 
Western Hemlock, which is the monoculture I was telling you 
about taking over. What is going to happen over time, is 
eventually that whole forest that we knew once is going to be 
replaced by this monoculture of Western Hemlock which, in turn, 
will provide us with an over and over and over forest of 
nothing but Western Hemlock. In walking through these 
monocultures of Western Hemlock, it is my estimation that we 
are losing and have lost at this point in time over 50 percent 
of the species that are in the forests and were in there when 
it was considered a mixed stand of timber, a very important 
thing to consider, especially when we look at the Endangered 
Species Act.
    Let me say in closing that I think, for the first time in 
all of my years, I have really seen some common sense come 
before Congress for the benefit of the American people. I thank 
you.
    [The prepared statement of Mr. Barnett follows:]

  Statement of John Barnett, Chairman, Cowlitz Indian Tribe, State of 
            Washington, CEO and Owner, Cowlitz Timber, Inc.

    Let me begin by saying that I have some very serious concerns with 
the health of our national forests in the Pacific Northwest now and for 
future generations of Americans yet to come. Since the introduction of 
the spotted own as an endangered species and the environmental movement 
that followed, I have spent considerable time in both the Olympic and 
Gifford Pinchot National Forests to observe first hand the result of 
forest management changes. I have specifically concentrated my efforts 
in the Quinault Research Natural Area located between Neilton and 
Amanda Park in the state of Washington. This area, of some 1,000 acres, 
was set aside in 1931 as a research study area where Mother Nature is 
allowed to take its course. In 1931, this Natural Area consisted of 
what we now call a late successional or old growth forest consisting of 
varied tree species including Douglas fir, Sitka spruce, western red 
cedar, western hemlock, and red alder. The forest canopy was almost 
completely closed with a ground story of sword fern, salmon berry, and 
Devil's club. Early cruise figures show virtually 100% of old growth 
volumes.
    To back up in history to 1993, it is quite evident to me that the 
Clinton Administration's Northwest Forest Plan placed our national 
forests in the middle of a collision course between politics and 
standard forest science. So far, politics is winning and the truth will 
only come out through a concerted effort nationally of all the people 
who have the fortitude to build enough ground swell to change a flawed 
national policy. It is also evident to me that the Clinton 
Administration's team of scientists headed by Jack Ward Thomas was 
instructed to present a series of ``Forest Management Options'' from 
which the Clinton Administration could choose one that would supposedly 
balance forests and humans. In the big court scene that will eventually 
come, the main characters will tell what went on behind closed doors, 
where science turned into politics and politics turned into special 
interest advocacy.
    To prove the point of collusion between the Administration and the 
``Gang of Four,'' one must only turn to a book bearing an unassuming 
title: Annual Report of the Department of Interior for the Fiscal Year 
Ended June 30, 1900, Twenty-first Annual Report, U.S. Geological 
Service. The book includes hundreds of pages of detailed forest 
inventory data gathered on the ground in Oregon and Washington, and a 
large collection of color maps showing the distribution, size, and age 
of tree species then present. What is most unsettling about this huge 
body of information is the fact that the government's scientists make 
no mention of its existence in the proposal they wrote for the 
President, and in fact they say in words that it does not exist. The 
fact that the government scientists ignored historical forest patterns 
and science, contradicts their own personal biases about forests and 
forestry and led to the historical gap in complete information that 
would have changed through actual proof that our forests in the Pacific 
Northwest are in a continuing state of disturbance and fluctuation. 
Change and turmoil, more than constancy and balance, are the rule. What 
forest science reveals is that natural disturbances, including weather 
patterns, wind, fire and disease, prevent ecosystems from ever settling 
into a steady state. The idea that the Pacific Northwest was once a 
vast sea of old growth timber is a myth. It has been one of the main 
components expounded by the environmental movement to sway the thinking 
of the general public in the United States that old growth trees as 
they now exist will be here forever and will be available for 
generations to hug into infinity. Trees, as well as humans, have a 
measurable life expectancy. They, as humans, will eventually have an 
obituary.
    For further information, please turn to pages 7 through 16 in the 
Evergreen magazine (March-April, 1994 edition). This interview with Bob 
Zyback, ``Voices in the Forest,'' contains valuable information on the 
historical overview of our forests in the Pacific Northwest and points 
out some very serious flaws in the formation of the Clinton 
Administration's ``Northwest Forest Plan.'' I concur with his analysis.
    It is very ironic that past Secretary of the Interior, Bruce 
Babbitt, made the following direct quotes during his observation of 
damages incurred recently by the Cerro Grande fire.
    ``It was a systematic failure in the Park Service. I think we are 
going to have to go back as a result of this investigation and revamp 
the fire program from A to Z . . . . We owe that to the American 
people,'' Babbitt said. ``These forests are too thick,'' he said. 
``They're explosive, they're dangerous, and the reason is because fire 
has been excluded for 100 years and there's too much fuel in the 
forests, too many trees.''
    Sometimes the actual truth does slip out and seriously undermines 
the myth being fed to the American people.
    With the above remarks being said, let me turn back to some 
observations and conclusions that I have reached. First, from the 
Cascade Mountain Range to the Pacific Ocean and from the Canadian 
border through Oregon and Washington and into northern California, our 
national forests are gradually changing from the mixed species of the 
past with its vast biodiversity to a monoculture of western hemlock. 
Western hemlock is the climax species of our so-called late 
successional forest that included trees of many species that were there 
prior to the coming of white settlers to North America. The term late 
successional is also a myth as it infers that the national forests will 
continue with replacement stands of mixed species as in the past. 
Western hemlock is the only conifer specie that will grow and thrive in 
the shade. When holes are created in the forest canopy due to wind or 
other disturbances or with the natural death of trees, the opening will 
naturally reseed with virtually exclusive stands of western hemlock 
regeneration. Over time, as the late successional forest eventually 
dies out and is replaced by the western hemlock monoculture and by the 
elimination of one of Mother Nature's tools--fire--the hemlock will 
repeat itself over and over until humans realize their mistake. Through 
preservation of our forests in their natural state, we are inviting an 
extremely heavy buildup of fuel content on the forest floor that will 
eventually climax with massive forest fires with the potential of 
burning millions of acres of our national forests.
    Under the preservation mode presently in place, the magnificent 
Douglas fir is entering the downward spiral to extinction because it 
needs total sunlight to grow and thrive. The towering Sitka spruce, 
which will grow to a height of 250 feet with a diameter of more than 14 
feet, is rapidly moving into extinction due to infestation of tip 
weevils in young trees of 10-15 years of age. The weevil eats the 
growth leader, which in turn causes a new growth of multiple leaders 
which diminish the height of the tree. Instead of 200 feet mature 
spruce, we are saddled with a multiple topped bush in the form of a 
snowball 20 to 40 feet tall at maturity. The Sitka spruce also needs 
total sunlight for survival.
    Perhaps the worst feature of the Northwest Forest Plan is that tree 
species 80 years or older are now considered to have ``old growth 
characteristics.'' The maximum age of our second growth tree 
plantations in the Pacific Northwest is 70 years. Once these 
plantations reach 80 years of age, they will automatically be ``off 
limits'' forever due to the old growth classification. The vast 
majority of Forest Service timber sales now consist of commercial 
thinning sales in these second growth stands. As the window is closed 
due to the 80-year tree age distinction, the true agenda of the 
Northwest Forest Plan becomes a reality--total preservation.
    As the tribal chairman of the Cowlitz Indian Tribe for the past 20 
years, I have a feel for their thoughts. My people look at the forest 
as a cornerstone of our culture along with the salmon. We look at the 
forest as a tool left us by the Creator--a tool not only to be used 
spiritually but for our survival. The cedar tree is a very special tree 
to my people. Since time immemorial we have used the cedar bark for 
basket making, the trunk of the tree to make our canoes, and the 
branches for ceremonial purposes. My people believe that we can live in 
harmony with what was left for us by the Creator. We believe that it 
was given for our survival--as Native Americans. We also know that we 
must protect, preserve, and conserve what was given to us as a natural 
resource to continue as a replica of the past.
    I have spent 55 years of my life in and around the forests of the 
Pacific Northwest. I fell the first tree in my life at the age of 12 on 
one end of a crosscut saw with my dad on the other end. I have had, 
during those years, extensive experience in all phases and use of the 
forest. My forest experiences have been hands on. My degrees in 
forestry are hanging in my garage in the form of 20 pairs of worn out 
caulk boot--each with stories all their own.
    I have been very honored to have been able to testify before you 
today on subjects most dear to my heart. Change will only occur through 
the will of the people speaking the truth.
    I would like to leave you with the following thoughts. In my 
opinion, drastic change in policy regarding use and management of our 
national forests is needed immediately. We have altered the Master Plan 
provided by the Creator. We must reverse this alteration and recreate 
the forest landscape as was intended. This means sound forest 
stewardship to revive our multiple species of trees that were here 
prior to white settlement of the land. This must be based on the 
landscape, soil type and climate. Without this biodiversity, all 
creatures of the forest may face extinction.
    As history unveils, I, for one, do not want my great grandchildren 
to see our forests as they once were--only in pictures.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Barnett.
    Mr. Holmer, you may proceed.

STATEMENT OF STEVE HOLMER, CAMPAIGN COORDINATOR, AMERICAN LANDS 
                            ALLIANCE

    Mr. Holmer. Thank you. On behalf of the American Lands 
Alliance, I would like to urge the Committee to reject H.R. 
2119. We do not feel that the bill addresses the priority needs 
for our national forests. We would just like to specifically 
say we strongly disagree with the restoration proposals here, 
but we agree that restoration for the national forests is a 
very critically important topic, and we are very interested in 
continuing to work with the Committee on that.
    We, fundamentally, think you need to look at the root 
causes for the kinds of changes in the forests that have been 
described to you. We see the root causes as being logging, 
grazing, fire suppression, invasive species and excessive road 
construction. So, we feel like, if you really want to restore 
the forest, you have to start by addressing those specific 
issues first.
    I would just like to real quickly run through our concerns 
about H.R. 2119, and then talk about some of our ideas for 
restoration that we urge the Committee to consider. We do not 
feel that new land management designation for historical 
forests is necessary. In general, we feel, thematically, like 
there has been a failure to recognize natural forest 
succession. The fact is, you have a natural process where 
forests will change over time. As described to you, you will 
have shade-tolerant species ultimately take over for species 
that favor the sunlight, but then sometime down the road you 
will have a natural disturbance, a wind event or a fire, that 
will remove the shade tolerant species and, again, the sun-
loving species will have a chance to regenerate in those areas.
    It is a natural process. So, the idea of trying to freeze 
things in time and keeping the forests at that exact place 
forever simply shows no recognition of how forests really work. 
We do need to recognize that forests are dynamic and we cannot 
assume we can just freeze them in time. What we can do, though, 
is we can preserve the fundamental ecological processes that 
determine how forests are going to evolve over time, and 
allowing these natural processes to work is really how we think 
you are going to end up restoring the forests.
    Another key point is that we are concerned about the need 
to create new management plans for these historic forests. 
Right now, we are already involved in an intensive forest-
planning process. This will basically duplicate that, increase 
the amount of funding and bureaucracy needed to do forest 
planning, and we think it is likely to create management 
conflicts when you have two plans come out for the same piece 
of ground that do not agree with each other. So, we see all the 
management planning in there as completely unnecessary.
    We are also concerned about the restoration goal found in 
Section 103. It puts resource extraction on par with legitimate 
restoration activities. Excessive resource extraction and 
intensive management is the primary cause of forest 
degradation. Continuing resource extraction as part of 
restoration is likely to undermine the ecological objectives of 
the program, and require additional ecological restoration in 
the future. To go back to your analogy of being a dentist, if 
you had a patient who just had three teeth knocked out and said 
you are going to replace your three teeth, but we need to take 
two more of your teeth out to pay for things, the patient is 
going to realize that he is not quite getting all the way 
restored. So, we are very concerned about an economic model for 
restoration that requires continued extraction to pay for 
everything. We think that you are just not going to get there 
that way.
    Another key concern has to do with the creation of a new 
off-budget trust fund. We have seen serious problems with the 
current trust fund, such as KV, salvage and brush disposal 
funds, where they create an incentive for the agency to favor 
resource extraction activities over other type of restoration 
activities. So, we would be very concerned about the creation 
of a new fund. We are even further concerned about taking money 
from offshore oil drilling and using it for this purpose. We 
think that those funds should be used for other purposes, such 
as the acquisition of the threatened habitats. If we are going 
to protect endangered species, that is probably the fastest way 
you are going to get there, by acquiring these threatened 
habitats.
    We are also very concerned about both Title II and Title 
III that would create new advisory Committees. Neither of these 
Committees have to be under the Federal Advisory Committee Act. 
They are both full of political appointees, so we do not see 
them being fair or balanced. The local advisory Committee would 
also be repeating the resource advisory Committees that were 
just created under the county payments bill. So, we do not 
think that that is necessary.
    Just real quickly, I would just like to lay out a few of 
the principles that we think should be considered. One is that 
forest restoration requires an integrated, comprehensive 
approach that includes preserving and protecting intact 
landscapes and letting the land heal itself, and only where 
necessary, helping it do so with active restoration efforts. 
From a basis of ecological integrity, we can re-establish 
sustainable human connections to the land through quality 
restoration jobs and conservation-based economies, as well as 
provide an economic framework to restore and sustain ecological 
integrity and community viability.
    We see a real opportunity to create jobs here, but the 
program has to be set up in a way that the public can be 
involved, that the science is listened to, where there is 
environmental and economic justice for the workers doing these 
projects. Right now we are in a low-bidder system that 
encourages a system of migrant forest workers, very similar to 
the system of migrant farm workers. These workers are being 
abused; they are being paid less than minimum. We believe in 
the end, the forests themselves will end up suffering under 
this system, because economics, in the end, will be paramount. 
Letting big companies come in and do big contracts that involve 
a lot of logging will be paramount. We would much rather move 
to a system that supports small businesses, that supports small 
communities, but that does not encourage increased resource 
extraction on the public lands.
    My testimony is available for your reading. I would just 
like to also mention the precautionary principle. There is a 
great deal we do not know right now about what would happen if 
we go out and do these activities. For example, people talk 
about thinning to reduce fire risk, but the fact is, according 
to Forest Trust, which just reviewed 400 papers on this 
subject, there is no empirical data that shows that thinning 
will reduce fire risk on our forests. So, we need to know what 
we are doing before we start proposing changing the whole 
landscape.
    [The prepared statement of Mr. Holmer follows:]

    Statement of Steve Holmer, Campaign Coordinator, American Lands 
                                Alliance

    On behalf of American Lands Alliance, representing grassroots 
forest activists and organizations from around the nation, we urge the 
Committee to reject H.R. 2119, because the bill does not address the 
priority need for protecting and restoring the National Forests. 
Intensive management is part of the problem, not the solution. While we 
strongly disagree with the specific proposals found in H.R. 2119, we 
agree that addressing the restoration of degraded forest landscapes is 
an extremely important topic that merits further discussion and 
ultimately, congressional action.
Concerns With H.R. 2119
    1. The proposal to create a new land management designation of 
``National Historic Forest'' in Sec. 101 is unnecessary. The proposed 
process for designation will be expensive and time consuming for agency 
officials and the concerned public while offering no discernible 
benefits.
    2. The preparation of management plans for historic forests as 
required by Sec. 102 of the bill outside of the established forest 
planning process will lead to duplication of work and require 
considerable staff time and funding better spent on ecologically 
beneficial restoration projects.
    3. The ``special consideration'' of certain uses in these 
management plans in Sec. 102 (b) (2) overemphasize economic 
considerations while placing insufficient emphasis on protecting 
ecosystem services such as water quality and maintaining the viability 
of fish and endangered species across their natural ranges.
    4. The ability for the Secretary to unilaterally revise or revoke a 
management plan in Sec. 102 (c) undermines the public involvement 
process. All decisions and management plans affecting plans should have 
a mechanism for public involvement.
    5. The restoration goal found in Sec. 103 puts resource extraction 
on par with legitimate restoration activities. Excessive resource 
extraction and intensive management is the primary cause of forest 
degradation. Continuing resource extraction as part of restoration is 
likely to undermine the ecological objectives of the program and 
require additional ecological restoration in the future.
    6. Overall, while the goal of restoration is needed and worthwhile, 
there also needs to be specific scientific principles and management 
criteria included in the bill to ensure that the resulting projects do 
not do more harm than good.
    7. The direction to use cost-effective restoration methods in Sec. 
104 may lead to commodity extraction to pay for needed restoration 
projects. Commercial logging is never the most cost effective method 
when all factors are considered. In fact, it is one of the contributing 
reasons why forests need to be ``restored'' today. Ecological 
restoration will, in general, not generate significant revenue or by-
products of economic value. Restoration work will require an investment 
by Congress--a very wise investment--that will create jobs and maintain 
the fundamental ecosystem services such as clean water supplies upon 
which human society and the entire economy is based.
    8. Amending National Forest Management plans (Sec. 105) to make 
them consistent with the approved management plans for historic forests 
will require citizens to be involved with two separate planning 
processes for the same area and create potential management conflicts.
    9. The National Historic Forest Restoration Fund (Sec. 107) will 
create a new incentive for resource extraction on the National Forests 
and encourage revenue generating projects under the guise of 
restoration. As is currently the case with the KV, Brush Disposal and 
Salvage funds, off-budget funds create an incentive for the agency to 
maximize revenue because it gets to keep 100% of the money.
    10. Funds from the Land and Water Conservation Fund (Sec. 107) 
should not be used to create and support the Historic Forest 
Restoration Fund. The bill proposes to divert $675 million over the 
life of the bill that could be better spent acquiring threatened 
habitats.
    11. Accepting donations (Sec. 108) and giving due consideration to 
the expressed intentions of the donor could lead to undue influence 
being exerted by donors on the Forest Service.
    12. Title II of H.R. 2119 creates an unnecessary National Advisory 
Council on Forest Restoration which duplicates responsibilities now 
held by the Forest Service. All positions, with the exception of the 
Chief of the Forest Service would be political appointees of the Bush 
Administration. This does not ensure a fair or balanced participant 
make up nor are their requirements to ensure that the scientific, 
forest workers or environmentalists are represented. This complete lack 
of fairness is perhaps why the bill exempts this Committee from the 
Federal Advisory Committee Act.
    13. Title III of the bill creates Local Management Advisory 
Committees which fails to adequately allow representation of the full 
range of scientific, worker and environmental interests concerned about 
recreation issues. This would also duplicate similar Resource Advisory 
Committees created by the county payments legislation. The emphasis on 
foresters on the committee indicates a strong bias for certain types of 
restoration (salvage and thinning) over others. A wildlife biologist 
might be more interested in the reintroduction of endangered species, 
while a hydrologist might be more focused on removing roads to restore 
watersheds. Again, this committee would not have to comply with the 
Federal Advisory Committee Act to ensure fair representation.
    In conclusion, we are strongly opposed to H.R. 2119 and would urge 
the Committee to reject it in its entirety. However, we are very 
interested in the topic of restoration and are working to develop a 
model that we hope can help benefit Congress and the land management 
agencies as they move forward to address this critical issue.
A Vision and Principles for Forest Restoration
    Fully functioning ecosystems are the Earth's life support. Forest 
ecosystems provide clean drinking water, purify our air and regulate 
our climate. These vital benefits are literally our stock of ``natural 
capital'' that is necessary to sustain all life. Provided that the 
forests' natural processes are functioning, they will supply a steady 
flow of these ecological services.
    In most cases natural capital is neither owned nor marketed. While 
the values of these services are understood, clean water and air, for 
example, are often considered ``free for the taking.'' Safeguarding 
these services and the forests that provide them are not usually the 
priority goal for land management decisions. Current economic 
incentives and a focus on resource extraction often work at cross-
purposes with protecting these forest values and result in the rapid 
depletion of natural capital. Consequently, these once enormously 
productive natural systems are unraveling, degrading water quality, 
compromising the health of rivers and streams, driving to extinction 
the last wild fish populations and severely impairing the ability of 
forests to regulate the climate.
    Decades of industrial forest practices have taken their toll on 
this country's forests and the communities and workforces that depend 
on them for their livelihood. Intensive management restoration 
prescriptions only perpetuate the further destruction of systems. 
Society's approach has been one-sided, focusing on taking from what 
seemed to be an endless supply of timber. Now it is time for society to 
give something back and focus on restoring the ecological integrity of 
our forests that will in turn secure our well being and that of future 
generations.
    There is a greater scientific understanding of the connections 
between land management actions and their negative impacts on the 
ability of a forest to provide vital ecological services. There are 
also good ecological economic models that more fully account for the 
costs and benefits of land management decisions. These models should be 
used to guide appropriate policy, incentives and mechanisms for 
investing in the landscape through ecological restoration.
    Recently, decision-makers and the interested public have recognized 
the need to restore our forests and federal agencies have developed 
plans for restoration activities. Central to the debate is the question 
of whether all proposed ``restoration'' activities are truly beneficial 
to the land and the lives that depend on them. Most notable is the 
National Fire Management Plan, which has raised many concerns about the 
plan's approach to forest restoration as well as concerns with other 
federal agency restoration efforts. Perhaps most important is the need 
to proceed with extreme caution. Just because humans have caused the 
current level of degradation, we should not assume that human 
intervention can always necessarily solve these problems.
    Several questions need to be answered in order develop a credible 
science-based restoration agenda including: 1) defining ecological 
forest restoration and the principals and criteria on which this work 
should be carried out, 2) using these principles and criteria to guide 
implementation of the National Fire Plan so that it is ecologically 
sound, 3) identifying who will do the work, 4) identifying what skills 
are needed and what processes will allow for equitable participation by 
rural communities and mobile workforces, and 5) what is the transition 
strategy by which these goals can be achieved.
    The following restoration goals and principles are under 
development to answer these questions and set forth a vision and 
framework for addressing these issues. This policy statement is 
national in scope and recognizes the need to develop supplemental 
regional principals and criteria that would address differences in 
forest ecosystems and further involve regional partners.
Forest Restoration Principle
    Forest Restoration requires an integrated, comprehensive approach 
which includes preserving and protecting intact landscapes; letting the 
land heal itself, and, only where necessary, helping it to do so. From 
a basis of ecological integrity we can reestablish sustainable human 
connections to the land through quality restoration jobs and 
conservation-based economies, as well as provide an economic framework 
to restore and sustain ecological integrity and community viability.
Ecological Forest Restoration Principle
    Ecological forest restoration is the process of assisting forest 
ecosystem recovery so that ecosystem integrity is enhanced and natural 
processes and disturbances can function unimpaired. Successful forest 
restoration has the potential to re-establish fully functioning 
ecosystems.
    The goal of forest restoration is to enhance ecological integrity 
by restoring natural processes and resilience. An ecological integrity 
approach encompasses advantages of historical models while recognizing 
that ecosystems are dynamic and change over time . Focusing on 
enhancing ecological integrity allows us to be guided by the needs of 
ecosystems rather than forcing our needs onto the landscape.
    Because we do not fully understand the potential impacts of 
restoration, all projects must be guided by the precautionary 
principle: if a restoration activity has a high risk of ecological 
damage and weak scientific support, then the activity should not go 
forward. This will be considered before deciding which type of 
restoration approach to use. Ecological restoration, based on a 
restoration needs assessment, will be approached on a scale from least 
invasive to more invasive.
Ecological Economics, Communities and Workforce Principle
    Ecological restoration is an important component of an ecologically 
sound, socially-just forest economy. It has the potential to support 
the long-term viability of communities at an appropriate scale, while 
fostering a culture of environmental sustainability. However, current 
economic incentives drive land managers, companies and consumers to 
rapidly deplete natural resources and social stability, imposing heavy 
costs upon the public, taxpayers and future generations without our 
consent. These incentives must be removed and replaced with positive 
incentives to protect and restore ecological integrity, within a 
framework that more fully accounts for the costs and benefits of land 
management actions.
    A highly-skilled, well-paid workforce is essential for restoration 
to meet high ecological standards. This requires a commitment to 
regional training capacity, skill certification, consistent funding 
over decades and workers' rights to organize and bargain collectively. 
The process of advancing ecological restoration must be open, inclusive 
and transparent, and become a practical outlet for breaking down class, 
culture, gender, language and religious barriers.
Ecological Forest Restoration
    1) Precautionary Principle: Because ecological systems are 
inherently complex and dynamic, it is impossible to accurately predict 
all the consequences of our actions, even well- intentioned restoration 
actions. Therefore, if an area proposed for restoration presents a risk 
of being negatively impacted by restoration actions, or if a specific 
restoration action poses a high risk of ecological damage or has weak 
scientific support, then the proposed area or action will not go 
forward, or the restoration activity will be implemented in incremental 
steps on an experimental basis. Active restoration should be 
implemented in situations where passive restoration might lead to the 
destruction or loss of natural processes, a species, stream system or 
rare representative ecosystem within a particular area.
        Precautionary Criteria:
        a) LRestoration plans will take a conservative approach.
        b) LRestoration projects that do not include money for 
        assessment, monitoring and evaluation will not proceed.
        c) LRestoration plans must be open to revision based on 
        monitoring, evaluation, new ideas and new science.
        d) LRestoration plans must minimize risks to ecosystem 
        integrity.
        e) LThe precautionary principle will be applied in two stages:
              i) LIn determining where to apply restoration activities
              ii) LIn determining what type of restoration technique to 
            apply once an area is chosen for restoration
        f) LIntensive management such as commercial logging should 
        never be viewed as a way to achieve restoration.
    2) Prioritization Principle: There are three which define the range 
of forest restoration methods:
        1) Lpreservation, the protection of relatively intact natural 
        areas and core refugia as sources of biodiversity, for example 
        old growth forests and roadless areas, where restoration is 
        largely unnecessary, or reference landscapes needed as a source 
        of baseline information;
        2) Lpassive restoration, the cessation of ecologically 
        degrading activities, such as intensive logging, grazing and 
        recreation, and excessive suppression of fire and forest 
        pathogens, to allow natural recovery processes to proceed 
        unhindered; and
        3) Lactive restoration, direct human intervention to 
        reintroduce (or secure) natural processes or at risk species in 
        cases where a) ecosystem composition, structure and function 
        are degraded or suppressed by factors such as compacted soils, 
        channelized streams, exclusion of endemic pathogens etc., or b) 
        human-induced ecosystem changes pose imminent threats to intact 
        natural areas, including roads and trails, and exotic 
        invasives.
    In determining restoration activities, priority must be given to 
protection of intact areas, and restoring areas of highest ecological 
integrity. In these areas, passive restoration will be encouraged, and 
active restoration will be applied judiciously based on degree of 
degradation and ecological need, emphasizing the least intensive 
interventions which are likely to provide the greatest ecological 
benefit, while minimizing management-induced ecological risks and 
costs.
    Active restoration will not be applied to intact areas and core 
refugia, such as old-growth forests, roadless or wilderness areas. 
Restoration of all kinds should proceed most rapidly in areas where, 
and using methods for which there is a high degree of consensus among 
key stakeholders that such restoration plans will enhance ecological 
integrity. Key stakeholders include scientists, communities of interest 
(environmental, worker, community), communities of place, and managers 
of affected land ownerships.
    Adaptive Management Principle: Ecological forest restoration of any 
type, at any scale is a process of adaptive management. Because of high 
levels of complexity, uncertainty and risk, any restoration requires an 
approach that is cautious, flexible and able to respond to change and 
new information. Acceptable restoration projects include a transparent 
public process that provides for: assessment, implementation, 
monitoring, evaluation and adaptation.
    Economic Framework Principle: Incentives that are inconsistent with 
achieving ecological integrity must be eliminated and replaced with 
positive economic incentives to protect and restore ecological 
integrity, within a framework that accounts for the costs and benefits 
associated with natural capital.
    Community/Workforce Sustainability Principle: Restoration must 
foster a sustainable human relationship to the land that provides for 
ecological integrity, social and economic justice for workers and 
communities, and a culture of preservation and restoration. In turn, 
effective restoration depends on strong, healthy and diverse 
communities and a skilled, committed workforce.
    Participatory Principle: Meaningful involvement for a diversity of 
communities, interest groups and other participants (at local, 
regional, and national levels) will be achieved through open, inclusive 
and transparent decision-making processes with recognition of and 
respect for differences.
    Thank you for this opportunity to testify and I am happy to answer 
any questions from the Committee.
                                 ______
                                 
    Mr. McInnis. We will now move to questions for the panel. I 
will begin the questions very briefly. First of all, Doctor, I 
find your comments--I keep looking back to your book and I 
appreciate you coming. I think that book is very helpful. Mr. 
Barnett, I am afraid that sometimes the people on the ground, 
such as yourself, with a long history and actually an 
eyewitness to the forest history as we have known it for the 
last 50 years. I think I see you as an expert. Unfortunately, I 
think back here in the political circles, you are often pushed 
aside for a more ideological philosophy of how these forests 
ought to be run, instead of actual common sense, and I 
appreciate your comments.
    Mr. Holmer, I need a couple of clarifications on your 
comments. First of all, you make a statement that the bill 
calls for extraction to pay for everything. I think that is a 
bit of an overstatement. I do not believe--maybe you are 
correct. If you can show me the language where extraction is 
required to pay for quote, ``everything.''
    Mr. Holmer. Well, we are concerned about the provision in 
the bill--
    Mr. McInnis. My question, Mr. Holmer, is does the bill 
contain that language or do you stand corrected?
    Mr. Holmer. It contains that intent, I believe.
    Mr. McInnis. Mr. Holmer, I am the Chairman of the 
Committee. My purpose in asking you that is, I do not want you 
to make a representation that the bill says something that, in 
fact, it does not. That is exactly what you did with your 
statement. I was looking. I could not find that language. You 
have clarified for me--
    Mr. Holmer. If I could clarify further--
    Mr. McInnis. Let me move to the second point that I want to 
ask you. You also cited that there are workers out there who 
are being abused. I would like to--you do not have to provide 
it today. You may not have it today. But, I take great interest 
in workers, whether they are migrant workers or other workers, 
who are suffering abuse and are working in violation of the law 
in regards to minimum wage. If you have that evidence--you 
stated that you do. If you have that, I request that you submit 
it to the panel or to my personal attention, so that we can 
then turn around and submit it to the proper authorities, so 
that it can be investigated.
    With that, I am now going to turn the microphone over to 
Mr. Inslee. Mr. Inslee, I open the mike, not only for 
questions, but also if you would like to give an opening 
statement, you are welcome to do so.
    Mr. Inslee. Thank you, Mr. Chairman. First, I would like to 
welcome Mr. Barnett, a fellow traveler who knows what the 
planes are like all across America. We appreciate you coming 
from the State of Washington, Mr. Barnett.
    Mr. Barnett. Thank you.
    Mr. Inslee. Mr. Holmer, would you want to take some of my 
time and elaborate on your answer to the chair's question about 
this issue of intent and how to pay for the program and 
extraction? Go ahead.
    Mr. Holmer. Sure, well, I think my comment was colored by 
what we are seeing happening on the ground right now, where 
there are a large number of restoration projects that are being 
billed as restoration, but, in fact, have a commercial-logging 
component. When we talk to the agency about this, they say that 
this is a way of trying to help recover some of our costs. We 
are very concerned that the commercial aspects of these 
projects undermine the projects.
    Take thinning, for example--the idea of thinning is to go 
out and remove the small diameter material and the brush. But 
if it is done as a commercial timber sale, there is an 
incentive to put some larger fire-resistant trees into these 
projects in order to make them pay their way. So, we are just 
very concerned about getting into a system where all 
restoration is, in some form, tied to commodity extraction. We 
would like to eliminate commodity extraction as part of any 
legitimate restoration program.
    Mr. Inslee. Mr. Barnett and Mr. Bonnicksen, let me ask you 
each to address this general issue. If we are going to design a 
system as--and what I understand the intent of the bill to be 
is, to design a system to, obviously to try to restore forests 
to their original condition, which could involve, at time, 
harvesting of wood fiber for various reasons. But I think the 
concern that has been addressed, that we do not create an 
incentive for decisions to be based on the commodity value of 
some of the timber being harvested, as opposed to the goal of 
restoring forests. To me, that is sort of the $64,000 question. 
How do you design a system that does not create incentives for 
the decision makers to make decisions based on the market value 
of the timber, as opposed to the real goal, which is restoring 
the forest?
    Now, let me just tell you about a couple of concerns I 
have. Under the existing situation, I think there is an 
incentive to make some wrong decisions, because the Forest 
Service and the trust fund essentially keeps the money. So they 
have some incentive, if you will, to maximize harvest. 
Secondly, if we do make any intimation that we use these funds 
to pay for the program, I think that there is an incentive for 
people to make decisions on the wrong motivation.
    How would you address those concerns? Maybe you can tell us 
if the bill already does that and, if not, what should we be 
thinking about to try to ensure that decision makers would make 
decisions based on restoration of the forest as opposed to 
maximization of the economic value?
    Mr. Bonnicksen. I would share your concern. I would 
certainly not want to see the extraction of timber and the 
generation of revenue to take precedence over what the real 
intent of this bill is, which is to fill a very important gap 
in our laws that would provide our children and grandchildren 
with some examples of the marvelous landscapes that they 
inherited. That is our goal, and nothing should interfere with 
that. It is our history, and we should take care of it. But the 
fact is we cannot afford to do this on the scale necessary, 
using public funds alone.
    If you simply talk about the cost of using prescribed fire, 
it ranges at the very best situation $60 an acre, and from 
there, such as in the Tahoe Basin, it can go from $700 to $1000 
an acre to do. That is not including pre-commercial thinning, 
which can be several hundred dollars an acre on top of that. 
Well, you take those costs and multiply them times, say, 90 
million acres, which is about what we need to deal with, and 
you can see that nobody is ever going to pay for that. And that 
is for the first entry. After that, you have to enter the 
forest every 10, 20, whatever the years would be required for a 
particular forest, to sustain it, to maintain it.
    You cannot do that either with public funds alone. That is 
not possible. We are going to have to generate some revenue to 
supplement the cost of management, otherwise we will have to 
forego the idea of recovering our forest heritage. It will not 
be financially possible, but we should, at the same time, avoid 
making the generation of revenue the incentive that would 
override the purpose of management. And that, I think, can 
easily be done. Right now, we do not really have restoration 
plans that are designed to recover what we have lost. There are 
many variations and most of them really do not come close to 
the historic forest.
    If we have a plan that actually says this is specifically 
the forest we want to re-create, then commercial incentives are 
not going to have any effect on the way you manage it. It is 
going to be revenue that is a byproduct of achieving the goal 
that has been specified, and the local management Committees 
are the most knowledgeable people to provide us with those 
plans.
    So, I think, by making the plan--crafting the plan more 
carefully, we can control whatever incentive might be to use 
timber harvesting excessively, which I would not want to see 
any more than you would.
    Mr. McInnis. Mr. Simpson?
    Mr. Simpson. Thank you, Mr. Chairman. Some people are going 
to suggest or be concerned that the goal behind this is to 
increase timber harvest on public lands, and it is not. What we 
have to do is keep in mind what the goal is. And the goal is 
trying to restore our historic forests, and, I guess, Mr. 
Holmer, you are not opposed to that; are you?
    Mr. Holmer. No, I am not, but I think the issue here is 
maybe we have different priorities. We would like to see a 
scientific /landscape-wide analysis to figure out what are the 
key priorities for each area. Actually, roads for our community 
seems to be the biggest environmental hazard out there. 
Invasive species in some parts of the country are clearly a 
huge threat, and we would propose stronger measures on trade 
agreements to keep these new critters from coming into the 
country. We do see a need for restoration, but we might go 
about it differently.
    Mr. Simpson. Well, I guess we have some agreement then, 
which is a beginning point, in that we do have a need to 
restore these historic forests, and we can disagree on how to 
get there, and maybe we can reach some agreement, but I want 
you to understand that the goal is restoring the historic 
forests. It is not commercial timber harvest, is not anything 
like that. If there is another way to do it--if there is 
another way that you can restore them and not cut trees, that 
is fine with me. I do not care the method. I just want all 
available tools to be able to restore the historic forests that 
we have. And, just one correction, if someone comes into my 
office with three missing teeth, and I tell them that I have 
got to take two teeth out in order to pay to replace the three 
missing teeth, the fact is, I charge them to take out those 
other two, not get money from them. So, I mean, it costs them 
more money. So, just a correction on that.
    Anyway, let me ask Dr. Bonnicksen, why do we need the local 
management Committees in this legislation?
    Mr. Bonnicksen. As a scientist and having written a book 
that covers 18,000 years of the history of our forests on an 
entire continent, you might think that I could actually have 
the knowledge to manage every forest on this continent. I would 
be the first to tell you I do not, and no scientist does. Every 
forest is unique, even within a type, because it is controlled 
by local influences, and all of us in science really specialize 
in a few forests, and have general knowledge of many. So, that 
is also true in terms of the people that lived there.
    It turns out that many people, and they do not have to have 
degrees to be knowledgeable, have many years of experience with 
a particular forest, that when we ignore it, we do so at our 
peril. If, by showing respect for them and their knowledge, we 
incorporate them into the search for the truth about the forest 
history and what is feasible to do there, we will do a much 
better and more successful job in management. So, we have to 
tap into local knowledge, scientific and practical, to make it 
possible to do this, because no one has enough knowledge to do 
this everywhere. Local participation is essential.
    Not only that, but really it has been studied all over the 
world. When we tried, for example, in Africa, to manage 
wildlife and restore wildlife--when you ignore those who live 
there, you fail. This has been shown in Africa. It has been 
shown in South America and Central America. Now ,everyone 
agrees that local participation is essential. Otherwise, not 
only do you lose the knowledge, but you lose the support of 
those who live there, and we need both. However that is 
structured administratively is of no importance, really. There 
are many people who know better how to do that. But what is 
important is that local people participate and share their 
knowledge so that we can really be successful.
    Mr. Simpson. There seems to be differences between those 
people who view this, I guess, as a timber-cutting bill or 
whatever, or have different ideas about how to manage a 
historic forest, than what is in this legislation. How do we 
resolve those differences between these two sides or can we 
resolve those differences? Can you create a historic forest by 
just doing nothing?
    Mr. Bonnicksen. There are a few instances where that would 
actually be feasible. The best example I could come up with--
well, actually two examples. One would be the Maple Basswood 
Forests on the Upper Peninsula of Michigan, the Porcupine 
Mountains State Wilderness Area. That is a forest that is 
primarily influenced by wind. The Native Americans made very 
little use of it. It has changed very little over the last 
6,000 years, except for an excessive deer population eating 
hemlock seedlings, by and large, you could leave it alone.
    The High Mountain Balsam Fir Forests in the New England 
States, likewise, could be left alone. But, by my calculations, 
about 97 percent of the land area occupied by our forests could 
not be left alone and successfully restored. The reason for 
that is that most of these are fire forests, and since the 
arrival of Native Americans in every corner of the lower 48, 
12,000 years ago, they increased the fire frequency for a 
variety of purposes by doubling it in most cases, and in the 
Pacific Northwest, where John lives, they were the principal 
source of fire.
    So, it seems to me that to leave the forests alone is to 
totally ignore its cultural history. I think we have to 
recognize in restoring forests the importance of the native 
peoples who lived here and who passed on to us the beautiful 
forests that we thought were important enough, for example, to 
put into the national parks. Their stewardship should be 
recognized and their participation should be an essential part 
of the process. So, leaving forests alone works in some places, 
but in most places, no.
    Mr. Simpson. Thank you.
    Mr. McInnis. Mr. Otter?
    Mr. Otter. Thank you, Mr. Chairman. Mr. Bonnicksen, I would 
like to follow up on a couple things that you said earlier, 
especially in response to Mr. Holmer's statement about the 
economic incentive. The question that I have for you is, you 
seem to be relatively familiar with natural resource 
extraction, and its cost as national policy; is it usual for 
us, when we are managing a natural resource, to see if we have 
got a cost versus benefit ratio going, or even when we enjoy 
one, let's say, like the Grand Canyon or the Yellowstone 
National Park, or even in that matter some oil drilling that we 
do or mining that we do--is it usual for us to look for a 
revenue source to at least defray part of the cost or all of 
the cost of our management?
    Mr. Bonnicksen. No, it really is not. It is becoming pretty 
expensive to go to a national park nowadays. It used to be a 
lot cheaper. That is one thing we are doing. We are generating 
revenue from our parks and it seems to be an acceptable thing 
to do.
    Mr. Otter. Let me expand just a little bit further on that. 
If we were to, indeed, restore, as many of Mr. Holmer and his 
constituents feel like perhaps we should, the natural process 
and the natural size of the forest, do we have--you seem to be 
pretty familiar with what the forests used to look like--do we 
have a lot of cities to get rid of and a lot town to tear up 
and a lot of roads to get rid of?
    Mr. Bonnicksen. I certainly hope not. I care about my 
fellow human being as much as I care about this forest, so I 
certainly do not want to do that.
    Mr. Otter. Pardon me for breaking in on you, but you have 
come to the heart and to the essence of my point. Indeed, we 
are looking for a historic example, and I think that is what I 
got out of Mr. Barnett's statement, that a historic example 
that we could go and look at and say this is the way it used to 
be everywhere, but right now, we have been able to reflect for 
ourselves, back on mother nature and the way she prepared for 
us, on this small example of the way that it used to be. Isn't 
that what we are talking about here?
    Mr. Bonnicksen. If small serves the purpose, yes. In some 
cases, on the landscape, really require a large area, but yes, 
the goal is--I mean, one of my granddaughters looked at me and 
said, ``Grandpa, you talk about these old forests,'' and they 
sit around and listen to me talk about them, and that is nice 
of them to do, ``But where can we go to see one?'' Really, if I 
take them somewhere, what I am going to have to say, and 
actually when I was a naturalist with the National Park 
Service, this is what I did do for 4 years--``See this forest? 
Isn't it magnificent? If you just take those trees away, and 
these trees away and those trees away, you can kind of 
visualize in your mind what it actually looked like.''
    Well, that is what we do not want to have to do. We want to 
be able to say, see, experience, feel, enjoy, feel the sense of 
pride in our country's history. This is what it really looked 
like. This is what inspired us to be the people we are.
    Mr. Otter. Interestingly enough, we had another hearing 
this morning, and it was on invasive and noxious weeds, and the 
process that we have across the United States, on all of the 
public lands, including the forest, but also the BLM, the 
Department of Energy's lands, the Department of Reclamations, 
U.S. Fish and Wildlife, and the list went on and on; and that 
if we did not do something, we were going to lose the natural 
lands and the natural inhabitants on those lands that we did 
have, meaning the vegetation.
    Mr. Barnett, let me ask you about the Pacific Northwest. 
You seem to be the most familiar with that. What would it take 
in the Pacific Northwest, in terms of having a natural forests 
exhibition, and that is in terms of species and also in terms 
of size?
    Mr. Barnett. I think that people are going to have to 
understand that certain things have to take place in the 
landscape, in order to re-create what my ancestors were blessed 
with. I will you give you an example of forest fires. Forest 
fires are put out nowadays. They cleanse the ground, but what 
happens after that takes place? They are automatically 
replanted with a monoculture of Douglas Fir or whatever the 
predominant commercial species is in the area, by the Forest 
Service. We have a golden opportunity, whenever a forest fire 
takes place and is put out, to take that piece of land and do 
just exactly what this bill is intended to do, replant it the 
way mother nature put it there, or, as we say as Native 
Americans, the way the Creator put it there, for our use, not 
only for beauty, but also for use and understanding.
    It can be done. It has to be replanted anyway. I would 
imagine that Mr. Holmer would say--what are you going to do? 
Let mother nature take its place? When the seed source is gone, 
what is going to happen? Are you ever going to have trees 
again? I question that. But we do have that opportunity after 
all forest fires from now on, to put this bill in place, to 
begin building those ancient forests that we once had covering 
the United States. I hope I have answered your question.
    Mr. Otter. Thank you very much. You have, sir.
    Mr. McInnis. Excuse me. I need to wrap this panel up. I do 
have one other question, Doctor, that came across to me as we 
were listening. There was a claim made in a previous statement 
that restoration science is still in its infancy, and that we 
really do not know enough to act yet. Tell me, and make your 
comments succinct, if you would, at what stage do we have that 
science and what is your response to that we should not act 
until, I guess, we get to a more advanced stage?
    Mr. Bonnicksen. The truth is we are talking about forests, 
and forestry is a profession that is 400 years old, and it 
originated in Europe. In that 400 years, forestry has developed 
into a very sophisticated science, but throughout, the roots of 
forestry are observations of nature and developing techniques 
to manage forests that mimic the way forests work, naturally. 
That is, all of our regeneration techniques, single-tree 
harvesting, group-selection cutting--we have a whole list of 
names for these techniques--all of them mimic natural forest 
processes.
    So, no, restoration is not new. We have been using the 
forest as a model for management for four centuries and we have 
gotten to the point where we can predict very well precisely 
what the outcome of our management will be. I think what has 
probably happened is that some people have seen the creation of 
the Society for Ecological Restoration, of which I am one of 
the founders, in the late 1980's, as the starting point of our 
knowledge of restoration, which it was not. In fact, it was a 
society that was created to bring together thousands of people 
throughout the world, who have been doing this for a very long 
time, in a professional society with two scientific journals.
    So, the creation of that society, I think, has led people 
to believe that this is a new science when, in fact, it was the 
culmination of many, many years of work. We have a very 
extensive literature on particular forests throughout the 
Nation on what they look like and how best to manage them. So, 
no, it is not in its infancy. We are at a point where we can 
act and act with confidence. There are forests for which we 
need more knowledge, that is one other reason for the local 
Committee, but I think we are well-prepared to carry out what 
this act intends.
    Mr. Holmer. Mr. Chairman, can I comment?
    Mr. McInnis. No. Thank you, Doctor. I find the statement 
well informed.
    Mr. Holmer, I am not going to make it a practice, as 
Chairman, of bouncing back and forth. You have been given your 
time allotment, and then we go around, as you know, to the 
panel members to ask questions. However, I am going to grant a 
waiver. It is my understanding, Mr. Barnett, that you have a 
film clip. I have received a request from a member of the 
Committee to allow you to show that clip, which I understand is 
very short in time. We will not take questions following. Is 
that correct, that you brought a clip?
    Mr. Barnett. Yes, well, initially--well, it is a short 
story, but let me tell you. Two years ago, I went on a vision 
quest in the Olympic National Forest to seek answers to this 
forest progress problem. I got answers from my Tamanawas. That 
led me to Washington, D.C., in a meeting with Doug, and Lloyd 
Jones, who incidentally was raised one-quarter mile from where 
I was, and I decided my frustration, I could not hold any 
longer.
    Out of my own pocket, I hired a crew to go out and put on 
tape the truth, the visual truth, of what is really happening 
to our forests in the Pacific Northwest. I would challenge the 
environmental community, and I would ask this Committee, at 
some time this summer, come on out and I will show you. I will 
show you exactly what I have said. The proof is in the pudding, 
and I can prove every word that I told you people today.
    Doug has put together just a couple of minutes on this 
video. I think it will emphasize some of the things, and if you 
do not mind, Mr. Chairman, I will kind of just ad lib as we go 
along, so you can to get the visual look and hear exactly what 
is going on.
    Mr. McInnis. Mr. Barnett, let me tell you that in fairness 
to the other people who have been limited to 5 minutes, I am 
granting you this additional time because you have come clear 
across the country to testify. I do not want this narration to 
continue. I want to see the clip very briefly. You may make a 
couple of comments and then we need to summarize. Otherwise, I 
have to reopen it for every other witness, which I do not 
intend to do.
    Mr. Barnett. Understood.
    Mr. McInnis. So, you may proceed with the tape.
    Mr. Barnett. This is the remains of an eight-foot Douglas 
Fir, 240 feet tall, that died a natural death. Its obituary was 
in the Aberdeen World. It rotted from the inside out and hit 
the ground. It was replaced by these Western Hemlock trees that 
you see around the stump of another old-growth fir that also 
died a natural death. These hemlocks are about 60 years of age. 
The species that I was telling you that is taking over our 
forests. Here is another example of those Western Hemlocks. 
They are so thick that we refer to them in the Pacific 
Northwest as the dog-hair stands, because there are a thousand 
to the acre sometimes.
    You will notice here that as you view the landscape, you 
see one or two old-growth trees left. All the other ones are 
the replacement by Western Hemlock of that one stand of mixed 
species. I might add that this is something that did not start 
10 or 15 years ago. Some of these Western Hemlocks that you see 
are second-growth Hemlocks that were not planted. They came in 
naturally and some of them are 60 or 70 years old.
    Here are some of the old-growth that are still left there. 
Many of the old-growth have the tops blown out of them during 
wind storms. What happens--here is another example of a Douglas 
Fir. If you look at this Douglas Fir that has naturally hit the 
ground, you will notice that at the very end of it there is a 
gentleman helping with the filming. You see him walking up that 
tree. He is up there about 200 feet walking toward the stump.
    But look at the stump. That is what is happening. It is 
rotting. It is a cancer of the tree, just like humans have 
cancer. Notice all around him the smaller trees. Those are all 
Western Hemlock, part of this monoculture takeover that I was 
telling you about. There is another view of it from a different 
angle. This tree was about, I would say, almost seven feet in 
diameter and it was about 250-to-260 feet tall. It did not have 
the top blown out of it, like a lot of them. It just died a 
natural death from the stump.
    Mr. McInnis. I think we have reached the--is that the end 
of it?
    Mr. Barnett. Thank you.
    Mr. McInnis. Thank you. I would like to thank the panel. I 
know that you have traveled a great distance to present your 
testimony. I appreciate the courtesy of you appearing in front 
of the Committee. Thank you very much. The panel is dismissed.
    Ms. Collins, our third panel, Associate Deputy Chief with 
the National Forest System. Welcome back to the Committee. If 
you would go ahead and take your place at the table. Ms. 
Collins, you are aware of the rules of the Committee in regards 
to your testimony. You may proceed.

 STATEMENT OF SALLY COLLINS, ASSOCIATE DEPUTY CHIEF, NATIONAL 
               FOREST SYSTEM, USDA FOREST SERVICE

    Ms. Collins. Thank you. I am delighted to be here. The 
comments I offer today are the administration's comments on 
H.R. 2119, and I can say right now that, Mr. Simpson, you are 
going to get rich dialogue around this topic. The 
administration supports the fundamental idea behind this bill; 
that is, that there is a need to restore some forests to what 
approximates their historic condition. We recognize that 
significant components of the biodiversity that once existed in 
pre-European forests have changed over time, even in forest 
ecosystems that have never been subject to active management.
    The intense wildfires last summer focused attention on the 
fact that, in many parts of the West, open Ponderosa Pine 
forests that once were subject to frequent, low-intensity fire, 
have been replaced by dense forests now subject to intense, 
stand-replacing forests. Another change is the substantial loss 
of the aspen component in the higher elevation areas of the 
West, perhaps exceeding a 50 percent loss since the 1930's. 
Many other examples can be cited, such as expansion of forests 
into grassland areas.
    So, we recognize the importance of seeking to restore such 
systems where it is both appropriate and possible to do this, 
and we know, clearly, that no action, as Dr. Bonnicksen said, 
is a decision in these dynamic ecosystems. There are costs and 
there are consequences associated with every choice that we 
make. In fact, much of the work that we are currently doing on 
national forest lands could be categorized as ecosystem 
restoration work, and let me just give you a few examples.
    Under the National Fire Plan and the cohesive strategy, we 
are seeking to reduce excessive fuel loadings in Western 
Ponderosa Pine stands so that we can introduce controlled fire. 
We are restoring open Longleaf Pine systems to the South to 
sustain unique ecological communities that they support. Under 
our national large-scale watershed project initiative, we are 
seeking to preserve functioning riparian systems and other key 
watershed values by working in cooperation with local 
communities and other groups. Through a system of 88 
experimental forests designated by the Chief of the Forest 
Service, we are exploring a lot of ideas.
    Real close to my home in Bend, Oregon, we created what we 
call the turn-of-the-century forests in one of these 
experimental forests, in partnership with our research 
community, to re-create these open, park-like Ponderosa Pine 
stands that where so prevalent in the late 1800's. These stands 
stand in stark contrast to the second-growth, dense stands 
adjacent to the project. Then there are the forest stewardship 
pilot projects, created by the 1999 and 2001 Appropriations 
Act. Most of those are restoration projects. We have researched 
natural areas. We have adaptive management areas. We research 
demonstration areas. We have a plethora of these kind of areas 
where we are trying lots of different things across the 
landscape on national forests.
    Our involvement with communities and the public is more 
active than ever, in large part due to the creation of advisory 
Committees throughout the West. We know about Section 205 as 
the Secure Rural Schools and Community Self-Determination Act 
was created, and we are in the process of setting those 
advisory Committees up. In some other parts of the country, 
like the Pacific Northwest, we have advisory councils that are 
part of managing the Northwest Forest Plan. Finally, a lot of 
other special designations, like monuments, have advisory 
Committees, as well.
    So, all of these authorities taken together are bringing 
people to focus on the restoration of our national forests. So, 
in our brief review of this legislation, we have identified 
several factors that we need to talk about as we move forward, 
and these include three or four things. We have got to talk 
about the scientific considerations for basing restoration on 
pre-European conditions. These are choices we make. What year 
do we manage for? Second, the level of review and oversight 
needed to make decisions about the management of National 
Forest System land; third, the inclusion of other specially-
designated areas for consideration. I talked about some of 
those. Finally, the interplay between these land management 
plans and the historic plans that are talked about in the bill.
    So, in conclusion, H.R. 2119 appears to have very similar 
objectives with our current management. I do want to emphasize, 
however, the restoration activities, whether they take place 
under this proposed bill, if it is enacted, are still subject 
to detailed analyses, and those must withstand administrative 
and judicial review. We support the goal of restoring our 
forests to sustainable conditions and we look forward to 
working with you further on this. Thank you.
    [The prepared statement of Ms. Collins follows:]

  Statement of Sally Collins, Associate Deputy Chief, Forest Service, 
                     U.S. Department of Agriculture

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today. I am Sally Collins, Associate 
Deputy Chief for the National Forest System, USDA Forest Service. My 
comments today represent the views of the Department of Agriculture on 
H.R. 2119, a bill to establish a program to designate, restore, and 
sustain historic native forests on national forest system lands, and 
for other purposes.
    The Administration supports the worthwhile goal that H.R. 2119 
embraces, but is still reviewing the bill. The Administration has 
serious concerns regarding the bill's fiscal impact--- specifically, 
the bill's use of Outer Continental Shelf revenues to fund the National 
Historic Forest Restoration Fund--- and the development of additional 
planning requirements. As soon as the Administration completes its 
review of the bill, we will communicate those concerns to the 
Committee. We welcome a discussion with the Committee and others on the 
important concepts proposed in this legislation.
H.R. 2119, National Historic Forests Act of 2001
    Title I of the National Historic Forests Act of 2001 directs the 
Secretary of Agriculture to designate certain national forest system 
lands as historic forests. These forests are to be, or after reasonable 
restoration will be, representative of prehistoric or historic 
landscapes significant in the history and culture of the United States. 
These forests are to be restored and maintained over time through 
methods including timber management activities, plant and animal 
control, grazing, and prescribed fire.
    Title II of the bill directs the Secretary to establish an Advisory 
Council on Forest Restoration that would make recommendations to the 
Secretary. These recommendations would include designation and 
restoration of national historic forests; review and approval of 
management plans; coordination needs with other Federal, state, and 
local entities; and study needs. In addition, the council would prepare 
an annual report to Congress, undertake forest restoration educational 
efforts, and prepare and submit a budget concurrently to OMB, the 
Department, and Congress as a related agency of the Department of 
Agriculture. The council would appoint a Director, who would appoint a 
General Counsel, and up to three additional staff that would report to 
the council. In addition, the council may request administrative 
support from the Department or contract with government or the private 
sector for supplies and services.
    Title III of the bill directs the Advisory Council on Forest 
Restoration, in consultation with the Secretary, to establish local 
management advisory committees for national historic forests. The 
duties of the advisory committees are to recommend additional national 
historic forests to the Secretary and council; document the relevant 
reference forest; prepare management plans for the historic forests; 
monitor and assess the effectiveness of restoration activities; conduct 
studies; provide advice regarding forest restoration; encourage public 
interest and participation in forest restoration; keep state and local 
governments, Tribes, and private parties informed of the activities of 
the committee; and prepare annual reports.
    The bill provides that the Federal Advisory Committee Act would not 
apply to the council or committee. The bill also provides for payment 
of $200 per day for council members and reimbursement of travel 
expenses for members of both the council and the local committees.
Existing Authorities
    Authorities for the Forest Service to manage vegetation for a wide 
variety of multiple uses currently exist. These authorities include the 
Forest and Rangeland Renewable Resources Planning Act and the National 
Forest Management Act. These statutes also require the Forest Service 
to involve the public in defining desirable forest conditions that 
integrate resources across the landscape.
    We also have authority to try some new approaches in implementing 
forest stewardship and restoration projects. Congress, in the fiscal 
year 1999 Interior Appropriations Act as amended by the fiscal year 
2001 Interior Appropriations Act, authorized 56 stewardship end result 
contracts that allow private contractors to perform services to achieve 
land management goals for national forests that meet local and rural 
community needs. This pilot authority authorizes the exchange of goods 
for services, retention of receipts, and awarding of contracts on a 
``best value'' basis.
    Last fall Congress passed the Secure Rural Schools and Community 
Self-Determination Act of 2000. This important legislation recognized, 
among other things, the need to improve cooperative relationships among 
the people that use and care for Federal lands and the agencies that 
manage these lands. Section 205 of this Act establishes resource 
advisory committees to improve collaborative relationships and to 
provide advice and recommendations to the land management agencies on 
restoration and enhancement projects. We hope to have many of the 
resource advisory committees established and functioning in their role 
by October 1.
    We feel these authorities will assist us in bringing people 
together to focus on restoring the sustainable condition of our 
forests.
Analysis
    H.R. 2119 appears to have a similar objective of bringing people 
together at the local level to focus on the stewardship needs of our 
national forests. We appreciate this effort to explore new ways to 
build support for restoration of our national forests. Forest 
restoration activities are a priority in the Forest Service. 
Restoration activities, whether taking place under existing authorities 
or under H.R. 2119 if enacted, are subject to detailed analyses, and 
those decisions must then withstand administrative and judicial review.
    The Administration supports the goal of restoring our forests to a 
sustainable condition. We would appreciate an opportunity to work with 
the committee to discuss how H.R. 2119 might be improved to complement 
the programs that the agency currently administers, while addressing 
the Administration's concerns.
    In our brief review of this legislation, we have identified several 
factors to consider as we proceed forward. These include the following:
    <bullet> LScientific considerations for basing restoration on pre-
European settlement conditions;
    <bullet> LThe levels of review and oversight needed to make 
decisions about management of national forest system land;
    <bullet> LThe inclusion or exclusion of other specially designated 
areas from consideration; and
    <bullet> LThe interplay between land management plans and historic 
forests restoration plans.
    Forest Service Research and Development has designated 88 
experimental forests across the country. In addition, over 450 research 
natural areas have been established on national forest system lands. 
Some of these areas might provide opportunities to work with the 
scientific community to pilot-test some of the bill's concepts. We 
would like to explore these and other opportunities with the Committee 
as it considers this issue.
    This concludes my testimony. I would be happy to answer any 
questions that you may have.
                                 ______
                                 
    Mr. McInnis. Thank you, Ms. Collins.
    Mr. Simpson?
    Mr. Simpson. Thank you, Mr. Chairman, and thank you, Ms. 
Collins, for your testimony. I appreciate it. As I said in my 
opening statement, this is meant to be a working draft and I 
look forward to working with the administration to try to 
address the concerns that you have. I understand that you have 
got to have a place to start, but as I understand from your 
testimony, it appears that the administration is supportive of 
the goals of restoring our historic forests.
    You mentioned one of the concerns being the interplay 
between different management plans and the management plan that 
would occur here once a forest is designated as a historic 
forest; can that work between current forest planning and 
historic forests?
    Ms. Collins. Sure, it can work. What we have got to do is 
coincide planning timelines and review timelines so that we are 
not creating more bureaucracy. We just need to be careful that 
we do not do that. There are ways that we can wrap ideas, like 
historic forests, into our land management planning process. 
There are a lot of opportunities to talk about what we can do 
here.
    Mr. Simpson. Good. Does the administration have any problem 
with the funding that is in this legislation?
    Ms. Collins. I think that there are a whole lot of things 
we have got to balance in terms of priorities. We support 
restoration 100 percent, and we are trying to do it in a lot of 
different ways, but there are a lot of concerns that we still 
have to explore in the funding area.
    Mr. Simpson. Well, I look forward to working with you and 
the administration to try to address these concerns. Like I 
say, we can look at all alternatives. One of my main concerns 
when I came to this hearing today was that some people would 
see this as legislation to somehow allow for cutting the 
forests that would not otherwise occur; that this would be a 
smoke screen for timber harvest and commercial harvests or 
whatever. I do not know how you get around some people's 
perception of that, but I will assure you that the goal of this 
legislation is to restore our historic forests.
    It was interesting, when I was out in Idaho just 2 weeks 
ago, one of the forest supervisors out there showed me some 
pictures that they had taken--that he found that were taken 
around the turn-of-the-century, around 1900; and they had gone 
back and taken some pictures from the same spot, and the 
computer would line them up. We have a tendency to think that 
everything pre-European was just thick timber all over the 
place, and somehow that we have destroyed all of this. But the 
reality was, if you compare these three or four pictures, the 
forest was much thinner, with much more diversity, back in 1900 
than it is today, and there are a lot more trees in that place 
today than there was back then.
    That is one of the reasons that we allow for harvesting 
when necessary, in order to thin out the forest, so that we can 
get the diversity of species and so forth, or whatever means we 
can use to achieve that. Otherwise, as was mentioned by Mr. 
Barnett, we are going to have a monoculture of trees in 
different forests that overtake them. As I said, I look forward 
to working with you on this. Thank you.
    Ms. Collins. That is great.
    Mr. McInnis. Mr. Otter?
    Mr. Otter. Thank you, Mr. Chairman. Thank you very much for 
your testimony, Ms. Collins.
    Ms. Collins. You are welcome.
    Mr. Otter. I have got a question on this 88 experimental 
forests; why 88? Why not 188 or 48?
    Ms. Collins. They are continually being created, as 
researchers are looking at the landscape of the kind of issues 
that we need to explore and experiment. So, they just represent 
a variety of problems and ecosystem types across the landscape. 
Some of them involve grasslands.
    Mr. Otter. How soon are we going to have some results on 
these?
    Ms. Collins. We have a lot of results from a lot of them. 
All of them are doing things right now. I happen to have 
managed one of them, so I am aware of the kinds of things that 
are going on in our experimental force. It is just a variety of 
things. We look at different ways to prescribe burn, different 
intensities. We look at different ways to thin. It gives you a 
lot of opportunities to explore different ways to manage for 
wildlife species, habitat. And then the research, the 
partnership with research, they continually write up their 
findings. All of that is available. There is a lot of good 
information there.
    Mr. Otter. It has been suggested, and I think you were here 
during the previous testimony, that it would be--as Mr. Simpson 
has also suggested during his question and answering--that 
perhaps this was seen as a smoke screen, in order to actually 
commercialize the process of management, commercialize the 
process, which does not frighten me. I have lived out West, 
where we have to live with our environment, and our environment 
includes people, and our environment includes a real economy 
that we have to deal with.
    But, I wonder why we could not establish, if, indeed, that 
was a problem, why don't these funds just go directly into the 
U.S. Treasury, and the U.S. Treasury, then, is the one that 
gains by it? Otherwise, I guess we could just give it away to 
the log mills and to the lumber mills, and to the paper mills, 
but could we not establish a policy, if this was the big 
holdup, that the money just went right straight into the 
Treasury and bypassed the trust and bypassed the forestry 
trust?
    Ms. Collins. So, you are talking about an alternative to 
the salvage fund? Is that what you are proposing?
    Mr. Otter. Yes.
    Ms. Collins. We could talk about that. I think the deeper 
issue here is what we are really doing on the landscape. I 
think that is the deeper issue, and what we have to do is be in 
complete integrity on our goals and objectives for that 
treatment on the land. Whether or not you pay somebody to 
remove trees or they pay us to take them, or something in 
between; volunteers, our own crews, whatever it is to 
accomplish the objectives that we set out for treating that 
landscape, to me, that is the key. I have said to this 
Committee before, having a local advisory Committee has been a 
wonderful thing for me as a manager, because there is built-in 
oversight and review of people who really understand and care 
about communities, part of that process that brings that 
integrity and understanding. I think it is really important 
that that is sort of the underpinning. It is not so much where 
the money flows that is an incentive. It is what we are doing 
on the land that matters.
    Mr. Otter. I know, but that is what seems to be holding up 
a broad-based support.
    Ms. Collins. Right.
    Mr. Otter. From one of the previous panelists and the folks 
that reside in his community of thought--is where that money 
goes. As far as I am concerned, I do not think it is that 
important, because they want us on the welfare system anyway, 
it appears. So let's get on the welfare system. In fact, I have 
suggested in this Committee several times that maybe what we 
ought to do, is we have got 35 million acres, 21.5 million 
acres of forests in Idaho, and if these other citizens from 
these other States would simply pay their tax bill, then we 
would not have a problem with it.
    But you see right now, the Forest Service only pays in the 
State of Idaho 80 cents an acre, whereas Potlatch and 
Weyerhauser, and all those profit-mongers, pay $8.80 an acre. I 
would be satisfied with their management plan, if it is just 
for the commercialization side of it, just have them pay their 
tax bill, as well. Of course, I am not sure the Forest Service 
would appreciate that.
    Ms. Collins. Do you want me to comment on that?
    Mr. Otter. I would only mention to you that the $16 million 
that we get right now would turn into well over $127 million 
just for our taxes that we should be receiving off of the 
Federal ground. Thank you.
    Ms. Collins. You bet.
    Mr. McInnis. That concludes the testimony. Ms. Collins, I 
appreciate very much your time. As usual, you are welcome to 
the Committee.
    Ms. Collins. Thank you.
    Mr. McInnis. I also, once again, want to thank our 
participants that still remain. Thank you for making the effort 
to travel as you have to present testimony to the Committee.
    To Mr. Simpson, Mr. Simpson, I ask that you continue to 
plow ahead. I think this is an excellent bill. I thought 
today's hearing was very informative, although I found myself 
distracted at times, reading your book, Doctor. Perhaps I 
should pay attention to what I am doing.
    Mr. Simpson. Mr. Chairman, I want to thank you for holding 
this hearing, and we will continue to work on it. Again, I want 
to reemphasize with everyone that if they have ideas, 
suggestions, from both the minority side, the majority side, or 
from the general public, please come and give us your 
suggestions and talk to us about what we need to do to make 
this work, because I think the goal that we hopefully all want 
to achieve is there.
    Mr. McInnis. Thank you. Thank you, Mr. Simpson. The 
Committee now stands adjourned.
    [Whereupon, at 4:15 p.m., the Subcommittee was adjourned.]

    The following items were submitted for the record:
        1. LLetter from Bryan Bird, Executive Director, Forest 
        Conservation Council
        2. LLetter from Mary Chapman, Executive Director, 
        Forest Stewards Guild
        [GRAPHIC] [TIFF OMITTED] T3180.006
        
        [GRAPHIC] [TIFF OMITTED] T3180.007
        
        [GRAPHIC] [TIFF OMITTED] T3180.008
        
                                   - 

</pre></body></html>
